<html>
<title> - MEETING THE CHALLENGES FACED BY GIRLS IN THE JUVENILE JUSTICE SYSTEM</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]





                    MEETING THE CHALLENGES FACED BY
                  GIRLS IN THE JUVENILE JUSTICE SYSTEM

=======================================================================

                                HEARING

                               before the

                        SUBCOMMITTEE ON HEALTHY
                        FAMILIES AND COMMUNITIES

                              COMMITTEE ON
                          EDUCATION AND LABOR

                     U.S. House of Representatives

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

             HEARING HELD IN WASHINGTON, DC, MARCH 11, 2010

                               __________

                           Serial No. 111-50

                               __________

      Printed for the use of the Committee on Education and Labor




<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                       Available on the Internet:
      http://www.gpoaccess.gov/congress/house/education/index.html





                  U.S. GOVERNMENT PRINTING OFFICE
  55-181 PDF              WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001








                    COMMITTEE ON EDUCATION AND LABOR

                  GEORGE MILLER, California, Chairman

Dale E. Kildee, Michigan, Vice       John Kline, Minnesota,
    Chairman                           Senior Republican Member
Donald M. Payne, New Jersey          Thomas E. Petri, Wisconsin
Robert E. Andrews, New Jersey        Howard P. ``Buck'' McKeon, 
Robert C. ``Bobby'' Scott, Virginia      California
Lynn C. Woolsey, California          Peter Hoekstra, Michigan
Ruben Hinojosa, Texas                Michael N. Castle, Delaware
Carolyn McCarthy, New York           Mark E. Souder, Indiana
John F. Tierney, Massachusetts       Vernon J. Ehlers, Michigan
Dennis J. Kucinich, Ohio             Judy Biggert, Illinois
David Wu, Oregon                     Todd Russell Platts, Pennsylvania
Rush D. Holt, New Jersey             Joe Wilson, South Carolina
Susan A. Davis, California           Cathy McMorris Rodgers, Washington
Raul M. Grijalva, Arizona            Tom Price, Georgia
Timothy H. Bishop, New York          Rob Bishop, Utah
Joe Sestak, Pennsylvania             Brett Guthrie, Kentucky
David Loebsack, Iowa                 Bill Cassidy, Louisiana
Mazie Hirono, Hawaii                 Tom McClintock, California
Jason Altmire, Pennsylvania          Duncan Hunter, California
Phil Hare, Illinois                  David P. Roe, Tennessee
Yvette D. Clarke, New York           Glenn Thompson, Pennsylvania
Joe Courtney, Connecticut
Carol Shea-Porter, New Hampshire
Marcia L. Fudge, Ohio
Jared Polis, Colorado
Paul Tonko, New York
Pedro R. Pierluisi, Puerto Rico
Gregorio Kilili Camacho Sablan,
    Northern Mariana Islands
Dina Titus, Nevada
Judy Chu, California

                     Mark Zuckerman, Staff Director
                Barrett Karr, Republican Staff Director
                                 ------                                

            SUBCOMMITTEE ON HEALTHY FAMILIES AND COMMUNITIES

                 CAROLYN McCARTHY, New York, Chairwoman

Yvette D. Clarke, New York           Todd Russell Platts, Pennsylvania,
Robert C. ``Bobby'' Scott, Virginia    Ranking Minority Member
Carol Shea-Porter, New Hampshire     Howard P. ``Buck'' McKeon, 
Paul Tonko, New York                     California
Jared Polis, Colorado                Brett Guthrie, Kentucky
George Miller, California            David P. Roe, Tennessee
Judy Chu, California                 Glenn Thompson, Pennsylvania








































                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on March 11, 2010...................................     1

Statement of Members:
    McCarthy, Hon. Carolyn, Chairwoman, Subcommittee on Healthy 
      Families and Communities...................................     1
        Prepared statement of....................................     3
        Additional submissions:
            Escobar, Dory Magasis, director of healthy 
              communities, St. Joseph Health System--Sonoma 
              County, CA, prepared statement of..................    45
            Just Detention International (JDI), prepared 
              statement of.......................................    46
            Saar, Malika Saada, executive director; Kathleen 
              Shakira Washington, policy director, Rebecca 
              Project for Human Rights, prepared statement of....    49
    Platts, Hon. Todd Russell, Senior Republican Member, 
      Subcommittee on Healthy Families and Communities, prepared 
      statement of...............................................    44

Statement of Witnesses:
    Carrion, Rachel, former detained youth, board member, 
      Community Connections for Youth, New York, NY..............    14
        Prepared statement of....................................    16
    Huff, Hon. J. Brian, presiding judge, Jefferson County Family 
      Court, North Birmingham, AL................................    19
        Prepared statement of....................................    20
    Ivory, Gary, national director, program development, Youth 
      Advocate Programs, Inc.....................................    35
        Prepared statement of....................................    37
    Romer, Cameron, probation officer, York County, PA...........    38
        Prepared statement of....................................    40
    Sherman, Francine T., clinical professor and director, 
      juvenile rights advocacy project, Boston College Law School     6
        Prepared statement of....................................     8
    Teplin, Linda A., Ph.D., professor; director, psycho-legal 
      program, Northwestern University...........................    26
        Prepared statement of....................................    28

 
                    MEETING THE CHALLENGES FACED BY
                  GIRLS IN THE JUVENILE JUSTICE SYSTEM

                              ----------                              


                        Thursday, March 11, 2010

                     U.S. House of Representatives

            Subcommittee on Healthy Families and Communities

                    Committee on Education and Labor

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to call, at 10:50 a.m., in 
room 2175, Rayburn House Office Building, Hon. Carolyn McCarthy 
[chairwoman of the subcommittee] presiding.
    Present: Representatives McCarthy and Polis.
    Also Present: Representative Murphy of Connecticut.
    Staff Present: Tylease Alli, Hearing Clerk; Calla Brown, 
Staff Assistant, Education; Jody Calemine, General Counsel; 
Denise Forte, Director of Education Policy; Ruth Friedman, 
Senior Education Policy Advisor; David Hartzler, Systems 
Administrator; Sharon Lewis, Senior Disability Policy Advisor; 
Sadie Marshall, Chief Clerk; Bryce McKibbon, Staff Assistant; 
Meredith Regine, Junior Legislative Associate, Labor; 
Alexandria Ruiz, Administrative Assistant to Director of 
Education Policy; Melissa Salmanowitz, Press Secretary; Kim 
Zarish-Becknell, Policy Advisor, Subcommittee on Healthy 
Families and Communities; Stephanie Arras, Minority Legislative 
Assistant; Kirk Boyle, Minority General Counsel; Allison 
Dembeck, Minority Professional Staff Member; Ryan Murphy, 
Minority Press Secretary; Susan Ross, Minority Director of 
Education and Human Services Policy; and Mandy Schaumburg, 
Minority Education Policy Counsel.
    Chairwoman McCarthy. By House and committee rules, two 
Members can constitute a quorum. No bipartisan requirement; two 
Members of same party will suffice.
    A quorum is present. The hearing of the House Committee on 
Education and Labor, Healthy Families and Communities 
Subcommittee, on ``Meeting the Challenges Faced by Girls in the 
Juvenile Justice System'' will come to order.
    Before we begin, I would like everyone to take a moment to 
make sure your cell phones and your BlackBerrys are on silence 
or off.
    Also, joining this hearing we are expecting two of our 
colleagues, Representative Woolsey, who is a member of the full 
committee, and Representative Chris Murphy, to attend the 
hearing. I ask unanimous consent for them to sit on the dais, 
to listen to testimony, and to ask questions.
    So ordered.
    I now recognize myself, followed by Ranking Member Todd 
Platts. He is going to be detained a little bit, but as soon as 
he comes in, he will have his opening statement.
    First, I would like to thank all the witnesses for being 
here today. We really do appreciate it. This is an important 
hearing. And I think what is also important is a lot of people 
don't actually know what is going on in some of our systems.
    We have assembled a panel of folks who are just incredibly 
knowledgeable in juvenile justice issues that affect girls 
especially. They are bringing their personal experience and a 
wealth of information from research and work in the field.
    Although we are focusing on the need for gender-specific 
juvenile justice reform, the issues we will cover, such as 
status offenses, valid court orders, confinement conditions, 
and mental health issues, have an impact on both young men and 
young women. We have decided to focus on young ladies today 
because, unfortunately, the number of girls in the system is on 
the rise and the juvenile justice system was developed around 
boys, in terms of policies, practices, and staff training.
    We have not held any hearings on gender-specific 
challenges, and there can be a significant difference on how 
girls and boys wind up in the system and how they are handled 
once in the system. I believe these issues are important to 
explore as we move forward to reauthorization on the Juvenile 
Justice Delinquency Prevention Act, but I want to emphasize 
that each of the areas we will cover will affect young men and 
women.
    Across the country in the 1980s and the 1990s, States 
largely abandoned the focus on juvenile justice rehabilitation 
and treatment in favor of an approach that responded to 
delinquent behavior with punished sanctions and institutional 
placement. Now, nearly 3 decades later, most practitioners, 
academics, policymakers, and the public believe that that 
approach has failed us.
    The current system does little to protect public safety or 
help youth become more productive, law-abiding citizens. And, 
in many cases, the youth that we are funneling into the 
juvenile system are the victims of trauma, have mental health 
issues, and have been accused of status offenses such as 
truancy or running away from home.
    Under the valid court order exception of the JJDPA, or VCO 
exception, runaway youth and other status offenders may be 
incarcerated. Specifically, the VCO exception allows status 
offenders to be locked up in their second and subsequent status 
offenses for violating the court's order not to commit another 
offense.
    We know that once they are part of the juvenile system, 
their long-term outcomes become very bleak. To put a juvenile 
in detention for a status, nonviolent, noncriminal offense is, 
in my opinion, criminal.
    Data has shown, in 2001, girls made up 19 percent of 
detained youth, but 24 percent of those were detained for 
technical violations, and 43 percent of those were detained for 
status offenses. Many young women, many of which are runaways, 
are often running away from an abusive home life. Some judges 
want to protect the runaway child from a chaotic household or 
from the streets, and, if they feel they have no other options, 
they will put her in detention.
    I believe we need to look closely at eliminating the VCO 
exception in the juvenile justice system. As we move forward 
with reauthorization, it is clear we do not want to be sweeping 
children into the juvenile system for minor, noncriminal 
offenses.
    Confinement should be the last resort, reserved for those 
who pose such a serious threat no other solution would be there 
to protect the public safety. In all other cases, young people 
can be well-served and the public kept safe by community 
support. For those who do not need to be placed in a facility, 
the system should treat and rehabilitate them, not hurt and 
harden them.
    Unfortunately, the DOJ report from this January indicates 
that confinement conditions in juvenile facilities can be 
horrible. Among other things, the DOJ report found an estimated 
12 percent of youth in State juvenile facilities and large non-
State facilities reported experiencing one or more incidents of 
sexual victimization. Most of these youth have been sexually 
abused before making it into the system.
    I am glad the DOJ collected this data and brought this 
outrageous situation to our knowledge. I think that we need to 
do a much better job of collecting data in the JJ system, and 
that is especially true in mental health, sex, race, and 
ethnicity. Without timely, accurate data, we cannot make the 
appropriate policy decisions here. For both young women and 
young men, confinement conditions are often of quite poor 
quality.
    Young ladies have particular health needs associated with 
pregnancy, childbirth, personal hygiene, mental health issues 
such as depression, trauma from previous sexual abuse, which 
are not being addressed and, in some cases, being exploited. We 
need to explore how to better screen young ladies who enter the 
system for mental health issues and how to treat young ladies 
once they are confined.
    The problems with the juvenile justice system are many. We 
have our work cut out for us. I believe this hearing will help 
us understand the key issues that we will need to address 
during reauthorization, and I am eager to hear from our panel.
    I want to thank all of you for being here, and I look 
forward to your testimony.
    Pursuant to committee rule 7, any Members may submit an 
opening statement, in writing or at this point, which will be 
made part of the permanent record.
    [The statement of Mrs. McCarthy follows:]

 Prepared Statement of Hon. Carolyn McCarthy, Chairwoman, Subcommittee 
                  on Healthy Families and Communities

    First, I'd like to thank all the witnesses for being here today.
    We have assembled a panel of folks who are incredibly knowledgeable 
in juvenile justice issues that affect girls specifically.
    They bring their personal experiences and a wealth of information 
from research and work in the field.
    Although we are focusing on the need for gender specific juvenile 
justice reform, the issues we will cover, such as status offenses and 
valid court order rules, confinement conditions, and mental health 
issues, have an impact on both boys and girls in the system.
    We have decided to focus on girls today because unfortunately the 
number of girls in the system is on the rise, and the juvenile justice 
system was developed around boys in terms of policies, practices and 
staff training.
    We have not held any hearings on gender specific challenges and 
there can be significant differences in how girls and boys wind up in 
the system and how they are handled once they are in the system.
    I believe these issues are important to explore as we move toward 
reauthorization of the Juvenile Justice Delinquency Prevention Act, or 
``J-J-D-P-A''.
    But I want to emphasize that each of the areas we will cover affect 
both boys and girls.
    Across the country, in the 1980s and 1990s, states largely 
abandoned the focus on juvenile justice rehabilitation and treatment in 
favor of an approach that responded to delinquent behavior with 
punitive sanctions and institutional placement.
    Now, nearly THREE decades later, most practitioners, academics, 
policymakers and the public believe this approach has failed.
    The current system does little to protect public safety or help 
youth become productive, law abiding citizens.
    And in many cases, the youth we are funneling into the juvenile 
system are the victims of trauma, have mental health issues, and have 
been accused of status offenses such as truancy, or running away from 
home.
    Under the ``valid court order exception,'' of the JJDPA--or ``VCO 
exception''--runaway youth and other status offenders may be 
incarcerated.
    Specifically, the ``VCO exception'' allows status offenders to be 
locked up for their second and subsequent status offenses, for 
violating the court's order not to commit another status offense.
    We know that once they are part of the juvenile system, their long 
term outcomes become very bleak.
    To put a juvenile in detention for a status, non violent, non-
criminal offense, is, in my opinion, criminal.
    Data shows that in 2001, girls made up 19 percent of detained 
youth, but 24 percent of those were detained for technical violations 
and 43 percent of those were detained for status offenses.
    For girls, many of which are runaways, they are often running away 
from an abusive home life.
    Some judges want to protect the runaway girl from a chaotic 
household or from the streets, and if they feel they have no other 
options, they will put her in detention.
    I believe we need to look closely at eliminating the ``V-C-O 
exception'' in
    JJDPA as we move forward in reauthorization as we do not want to be 
sweeping children into the juvenile system for minor, non-criminal 
status offenses.
    Confinement should be a last resort reserved for those who pose 
such a serious threat that no other solution would protect public 
safety.
    In all other cases, young people can be well served and the public 
kept safe by community supports.
    For those who do need to be placed in a facility, the system should 
treat and rehabilitate them, not hurt and harden them.
    Unfortunately, a DOJ report from this January indicated that 
confinement conditions in juvenile facilities can be horrible.
    Among other things, the DOJ report found an estimated 12 percent of 
youth in state juvenile facilities and large non-state facilities 
reported experiencing one of more incidents of sexual victimization.
    Most of these youth have been sexually abused before making it into 
the system.
    I am glad the DOJ collected this data and brought this outrageous 
situation to light.
    I think that we need to do a much better job of collecting data in 
the juvenile justice system that is specific to mental health, sex, 
race and ethnicity.
    Without timely, accurate data we cannot make the appropriate policy 
decisions.
    For both girls and boys, confinement conditions are often quite 
poor.
    Girls have particular health needs associated with pregnancy and 
child birth, personal hygiene and mental health issues such as 
depression and trauma from previous sexual abuse which are not being 
addressed and in some cases are being exploited.
    We need to explore how to better screen girls who enter the system 
for mental health issues and how to treat girls once they are confined.
    The problems with the juvenile justice system are many.
    We have our work cut out for us.
    I believe this hearing will help us understand the key issues that 
we will need to address during reauthorization, and I am eager to hear 
from our extremely knowledgeable witnesses.
    Thank you all for being here and I look forward to your testimony.
                                 ______
                                 
    Chairwoman McCarthy. When Mr. Platts, the ranking member on 
the Republican side, gets here, he will have his opening 
statement.
    Without objection, all Members will have 14 days to submit 
additional materials or questions for the hearing record.
    I would like to briefly introduce our very distinguished 
panel of witnesses here with us this morning. The complete bios 
of the witnesses will be inserted into the record.
    Today we will hear from six witnesses, each of whom will 
focus on challenges to the young ladies in the juvenile justice 
system.
    Again, I thank you all for being here.
    In the interest of time, given the large number of 
witnesses today, I will keep my formal introductions short.
    Our first witness is Professor Francine Sherman.
    Welcome.
    Professor Sherman is a professor at Boston College Law 
School, where she has been teaching juvenile justice for the 
last 20 years. She founded and directs the Juvenile Rights 
Advocacy Project, a law clinic helping juvenile clients. She is 
an ongoing consultant with the Annie E. Casey Foundation 
Juvenile Detention Alternative Initiative on strategies to 
reduce girls in detention nationwide. She authored a Casey 
Foundation report called ``Detention Reform and Girls.''
    Welcome, Professor.
    Our next witness is Rachel Carrion. Ms. Carrion is 
currently a board member of Community Connections for Youth, 
whose expertise on juvenile justice issues is shaped by the 
fact that she, herself, was in the JJ system. She first entered 
the juvenile justice system at the age of 15 when she was 
arrested for fighting with another girl. That began her 
experience in a system had failed to treat her underlying 
trauma and her substance abuse problems. Ms. Carrion currently 
serves as a board member at CCFY, which is a New York-based, 
youth-serving, nonprofit organization dedicated to promoting 
and developing alternatives to incarceration for youth.
    Welcome. And we appreciate you being here to tell your 
story.
    Our next witness is Judge Brian Huff. Judge Huff is a 
presiding juvenile judge for Jefferson County, Birmingham, AL. 
He was appointed to the bench in 2005 and, running as a 
Republican candidate, was elected in 2006. Judge Huff oversees 
Reclaiming Our Youth, a multiple-facet collaboration juvenile 
justice reform effort. Through his work, the juvenile 
incarceration rate in Jefferson County has been reduced by more 
than 70 percent--congratulations to you for that--while 
bringing millions of dollars back into the community through 
State grants. He brings his experience on the front lines of 
the juvenile justice system to the panel.
    Welcome, Judge.
    Our next witness is Professor Linda Teplin, professor of 
psychiatry and director of the Psycho-Legal Studies Program, 
Northwestern University Medical School. Professor Teplin is 
currently conducting the Northwestern Juvenile Project, the 
first large-scale, longitudinal study of the health needs and 
outcomes of juvenile detainees. In this study, her team tracks 
and re-interviews almost 2,000 youth who were initially 
arrested in detained in the 1990s. Her published papers have 
addressed a variety of topics: psychiatric disorder, health 
services, death rates, child maltreatment, trauma, suicide, 
functional impairment, and HIV-AIDS risk behaviors.
    Welcome, Professor. We are glad to have you here.
    My colleague Mr. Platts was going to be introducing our 
next two witnesses, so if--I am going to take the privilege of 
introducing both of you.
    Gary Ivory currently serves as the Southwest president of 
the Youth Advocate Programs, Incorporated, ``YAP,'' as well as 
national director of program development. In this capacity, he 
maintains oversight of several programs that provide a range of 
community-based services for children, youth, and families 
throughout the Southwest region. He has done pioneering work 
with juvenile street gangs in Fort Worth, Texas. This work was 
featured in several national publications, including Catalyst, 
a national newsletter of the National Crime Prevention Council, 
and a PBS series, ``In Search of Law and Order.''
    Welcome.
    Ms. Romer is a graduate of Indiana University in 
Bloomington, Indiana. She majored in criminal justice and 
history. Prior to being employed as a juvenile justice 
probation officer, she was employed as a case manager for 2 
years in a residential program for female adolescents, both 
dependent and delinquent. She is currently employed with the 
York County, PA, Juvenile Probation Department as an intensive 
aftercare officer. Her caseload includes female juvenile 
offenders that are in need of intense supervision and 
treatment. The service is designed to provide support for the 
family and child throughout placement and 6 months following 
their release from a residential facility.
    Welcome.
    Let me explain the lighting system in front of you. When 
you start speaking, a green light will go on. When the yellow 
light goes on, you have basically a minute. And we would kindly 
ask you if you could wrap up during that particular time. When 
the red light goes on, I will gently tap my gavel to tell you 
that it is time to cut off.
    Professor Sherman, please.

   STATEMENT OF FRANCINE SHERMAN, J.D., CLINICAL PROFESSOR; 
DIRECTOR, JUVENILE RIGHTS ADVOCACY PROJECT, BOSTON COLLEGE LAW 
                             SCHOOL

    Ms. Sherman. Good morning, Chairwoman McCarthy and members 
of the committee. Thank you for inviting me to testify on the 
ways the justice system can respond to challenges faced by 
girls.
    My testimony draws on 15 years as director of the Juvenile 
Rights Advocacy Project at Boston College Law School, as well 
as 10 years providing research and technical assistance to 
Annie E. Casey Foundation Juvenile Detention Alternatives 
Initiative jurisdictions around the country on ways to reduce 
the inappropriate detention of girls and increase their success 
in communities.
    Over the last 2 decades, girls remain a numerical minority 
in the juvenile justice system, but their proportion has 
steadily increased. Girls are 30 percent of juvenile arrests, 
18 percent of detentions, and 13 percent of commitments.
    Girls' presence in the justice system is closely linked to 
developmental and social factors unique to girls in either kind 
or degree. And increasing evidence shows that unintended 
consequences of juvenile justice system policies and practices 
are pulling girls into the system and keeping them there when 
another system or community-based agency would better serve 
them.
    The impact of family chaos and trauma for girls in the 
juvenile justice system cannot be overstated. While boys and 
girls in the justice system likely come from distressed 
families, girls are more likely to have families characterized 
by chaos such as violence, incarceration of a parent, and 
residential instability. Research shows that girls are being 
criminalized for living in these chaotic households by being 
arrested for family-based assaults in situations that would 
have triggered family services intervention in a prior decade 
and by being detained for violating curfew and orders to follow 
rules of the house in status offenses cases.
    JDAI, now in over 100 jurisdictions nationwide, is a 15-
year effort to reduce the inappropriate detention of youth and 
shore up communities to help youth live successfully in their 
homes. Through JDAI, I see a constant link between family chaos 
and girls' detention.
    For example, in 2006 Nevada law required that anyone 
arrested for domestic battery be securely detained for a 
minimum of 12 hours, making no distinction for the age of the 
offender. Under this law, police called about fights between a 
mother and daughter were much more likely to arrest the teenage 
daughter, leaving the mother to care for other children in the 
home, and triggering mandatory detention of the girl, which 
typically stretched beyond 12 hours. As a result, detention 
data from Washoe and Clark Counties showed that girls, who are 
up 25 percent of detentions overall, were an average of 42 
percent of detentions for domestic battery.
    Recently, Nevada amended its law to prohibit detention for 
domestic battery alone and put family crisis services in place 
as an alternative, so the girls are now provided with family 
services rather than being detained as victims of family chaos. 
Similar laws and policies exist around the country and have a 
disproportionate impact on girls who experience family violence 
at high rates.
    Research shows that up to 73 percent of girls in the 
justice system have experienced sexual or physical 
victimization. Girls are more likely than boys to have 
experienced sexual assault, rape, or sexual harassment. And 
abuse histories in girls may be linked to mental health issues, 
such as depression and anxiety disorders.
    Girls who have experienced sexual abuse are likely to 
engage in risky sexual behaviors themselves, risking their 
health and often triggering involvement in the juvenile justice 
system. Girls with histories of sexual victimization are more 
likely to become commercially sexually exploited, leading to 
arrest and detention for prostitution-related offenses and to 
lives marked by more abuse and trauma.
    Victimization and trauma lead girls to run away from home, 
which is a frequent cause of their arrest. Girls' profound 
histories of victimization become pathways into the juvenile 
justice system in these numerous ways. But using detention and 
incarceration punishes and re-victimizes these girls and fails 
to provide States and localities with incentives to properly 
address girls' victimization in the public health, child and 
family services, and victim services systems.
    As a January 2010 report by the U.S. Department of Justice 
made clear, sexual victimization is occurring at alarmingly 
high levels in juvenile facilities across country.
    Because girls offending is often tied to chaotic families, 
victimization and mental health needs, girls in the juvenile 
justice system are typically involved with multiple systems. 
Girls I represent have contact with the child welfare system as 
a status offender or abused child; the juvenile justice system; 
the education system, often as a special education student; the 
public health system; and the mental health system. In these 
cases, wraparound services are critical, and States should be 
encouraged to find ways to work across traditional agency 
boundaries.
    Although there are clear national patterns among girls in 
the juvenile justice system, the precise nature and mix of 
practices and programs needed to address challenges posed by 
girls will vary locally. Without data which is disaggregated by 
gender and cross-referenced by race and ethnicity, we cannot 
fully understand the challenges facing girls and which policies 
will be effective. In every jurisdiction I have worked with, 
detailed data collection and analysis disaggregated by gender 
and cross-referenced by race and ethnicity has been the key to 
understanding and designing effective solutions for girls.
    Let me make four recommendations. To better understand and 
respond to the challenges posed by girls in the juvenile 
justice system, I recommend: requiring jurisdictions to collect 
and analyze juvenile justice system data disaggregated by 
gender and cross-referenced by race and ethnicity; eliminating 
the valid court order exception to the deinstitutionalization 
of status offender mandate to prevent criminalization as well 
as provide incentives for jurisdictions to develop appropriate 
programming and services; encouraging the use of community-
based wrap-around services coordinated across agencies for 
girls with high social service and mental health needs rather 
than using detention; and additional research on girls and the 
system practices affecting them, particularly on the prevalence 
and needs of pregnant and parenting girls in the juvenile 
justice system and alternatives to juvenile justice involvement 
for commercially sexually exploited girls.
    Thank you.
    [The statement of Ms. Sherman follows:]

   Prepared Statement of Francine T. Sherman, Clinical Professor and 
 Director, Juvenile Rights Advocacy Project, Boston College Law School

    Good Morning Chairwoman McCarthy and members of the Committee, and 
thank you for inviting me to testify today on the challenges faced by 
girls in the juvenile justice system and the ways our justice systems 
can best respond. In my testimony I draw on my 15 years teaching 
juvenile justice, representing girls in the justice system and 
developing programming for them as Director of the Juvenile Rights 
Advocacy Project at Boston College Law School as well as 10 years 
providing research and technical assistance to Annie E. Casey 
Foundation Juvenile Detention Alternatives Initiative (JDAI) 
jurisdictions around the country on ways to reduce the inappropriate 
detention of girls and increase their success in their communities.
    Over the last two decades, while girls remain a numerical minority 
in the juvenile justice system, their proportion has steadily 
increased; from 1999 to 2008 arrests of girls decreased less than their 
male counterparts in almost every offense category and for some crimes 
(such as assault) arrests of girls increased while those of boys 
decreased (Puzzanchera, 2009). In 2008 girls were 30% of juvenile 
arrests, and in 2006 they were 18% of detentions and 13% of commitments 
(Sickmund, Sladky, Kang & Puzzanchera, 2008).
    <bullet> Who are these girls?
    <bullet> What forces are moving them into the delinquency system?
    <bullet> And is the delinquency system the right place for them?
    Girls' presence in the justice system is closely linked to 
developmental and social factors unique to girls in either kind or 
degree and there is increasing evidence that unintended consequences of 
juvenile justice system policies and practices are pulling girls into 
the juvenile justice system and keeping them there when it is clear 
that another system or community-based agency would better serve them.
    In 2008, girls comprised the majority of arrests for prostitution 
and running away; 44% of arrests for theft, and between 30-40% of 
arrests for non-index offenses such as liquor law violations, 
disorderly conduct, and curfew and loitering. With the exception of 
assaults, girls continue to comprise under 10% of arrests for violent 
crime (Puzzanchera, 2009). These trends in girls' arrests have been 
consistent over the past two decades.
Family Chaos and Trauma
    For girls in the juvenile justice system you cannot overstate the 
impact of family chaos and trauma. While boys and girls in the justice 
system are likely to come from distressed families, data shows that 
female delinquents are more likely to come from families characterized 
by chaos such as violence, incarceration of a parent, death of a parent 
or sibling, poor family communication, and residential instability 
(Lederman, Dakof, Larrea, & Li, 2004; Bloom, Owen, Deschenes, & 
Rosenbaum, 2002, Acoca, 1999, Timmons-Mitchell, Brown, Schulz, Webster, 
Underwood, & Semple, 1997).
    Moreover, there is strong evidence that girls are being 
criminalized for living in these chaotic households by being arrested 
for family based assaults in situations that would have triggered 
family services intervention in a prior decade (Zahn, et al, 2008), and 
by being detained for violating curfew and orders to obey ``house 
rules'' in status offense cases.
    Recent research by the Girls Study Group concluded that the 
increase in assault arrests for girls is due in part to their arrests 
for home-based violence, as an unintended consequence of law 
enforcement practices that require arrest or detention in domestic 
disputes. They note that while the most common victim of boys' and 
girls' violence is a same sex peer, the second most common victim of 
girls' violence is a family member, reinforcing what we have always 
known, that girls' crime is closely linked to their relationships 
(Zahn, et al., 2008).
    The Annie E. Casey Foundation's Juvenile Detention Alternatives 
Initiative (JDAI) is a 15-year effort to reduce the inappropriate 
detention of youth and shore up communities to help youth live 
successfully in their homes. JDAI is now in over 100 jurisdictions 
nationwide (Mendel, 2009). In my work with JDAI jurisdictions, we look 
closely at local data, always disaggregated by gender, race and 
ethnicity, to pinpoint ways that girls are disproportionately, 
unintentionally, or inappropriately detained when they would be served 
better and more successfully in their homes and communities. In that 
work the link between family chaos and girls' detention is a constant 
finding and was recently illustrated across JDAI sites in Nevada.
    2006 detention data from Washoe and Clark Counties, Nevada (Reno 
and Las Vegas) showed that while girls comprised an average of 25% of 
detentions overall, they comprised an average of 42% of detentions for 
domestic battery. At that time Nevada law required that anyone arrested 
for domestic battery be securely detained for a minimum of 12 hours, 
making no distinction for the age of the offender. Similar laws and 
policies exist around the country. Girls, who experience family 
violence at high rates, were bearing the disproportionate impact of 
this well-intended law. When police were called about fights between a 
mother and daughter, they were much more likely to arrest the teenage 
daughter because the mother had responsibility for other children in 
the home. This would trigger mandatory detention, which in most cases 
stretched beyond the 12 hours. In Nevada a coalition of rural and urban 
jurisdictions including juvenile justice systems, law enforcement and 
the domestic violence community worked with the state legislature, 
amending the statute to prohibit detention for domestic battery alone 
and put family crisis services in place as an alternative. Data from 
Washoe County now shows that girls arrested for domestic battery are 
provided family services, not detained, and not swept into the 
delinquency system for being victims of family chaos (Sherman, 2009).
    Like detention for domestic violence, detention for violations of 
valid court orders in status offense cases, often criminalizes girls 
who are the victims of chaotic families. In 2006, technical probation 
violations and status offenses accounted for 25% of boys' detentions 
and 41% of girls' detentions (Sickmund, Sladky, Kang & Puzzanchera, 
2008). A technical violation of probation is a violation for curfew, 
failing to meet ``house rules'', failing to meet with a probation 
officer, failing to attend school or some other condition of probation 
which is not criminal in and of itself, but is in the nature of a 
status offense once a youth is on probation. The original probation may 
be for a status or delinquency offense, depending on the jurisdiction. 
Allowing detention to be used in these cases, which are at their core 
about girls' distressed families, criminalizes the victim, contributes 
to the instability in these girls' lives, and provides no incentive to 
jurisdictions to put community-based family supports in place.
Victimization
    The research is unequivocal that a history of abuse and post-
traumatic stress disorder affects a significant number of girls in the 
juvenile justice system and is often a catalyst for their entry into 
the delinquency system.
    Although empirical findings as to the incidence of victimization 
vary, research shows that up to 73% of girls in the justice system have 
experienced sexual or physical victimization (Hayes, 2009). One study 
found that while males are more likely to have witnessed violence, 
females are more likely to have been the target of violence (Cauffman, 
2008). Girls are more likely than boys to have experienced sexual 
assault, rape or sexual harassment (Zahn et al., 2008), and a history 
of abuse is probably a more powerful predictor of delinquent behavior 
for girls than for boys (Cauffman, 2008). Abuse histories in girls may 
be linked to mental health issues such as depression and anxiety 
disorders (Bloom, Owen, & Covington, 2003; Sherman, 2005; Goodkind, Ng, 
& Sarri, 2006), or may manifest in girls as externalizing disorders 
such as aggressive behavior (Sherman, 2005).
    Girls who have experienced sexual abuse are likely to engage in 
risky sexual behaviors themselves (Hayes, 2009; Goodkind et al., 2006; 
Bloom et al., 2002; Kelly, Owen, Peralez-Dieckmann, & Martinez, 2007), 
risking their health and often triggering involvement in the juvenile 
justice system. Girls with histories of sexual victimization are more 
likely to become commercially sexually exploited teens, leading to 
arrests and detention for prostitution related offenses and to lives 
marked by more abuse and trauma (Farley & Kelly, 2000; Spangenberg, 
2001). Abusive experiences in the past may also affect girls' emotional 
adjustment and their ability to trust others, and may be a factor in 
substance abuse, which can lead to arrest as well (Bloom et al., 2002). 
Victimization and trauma is also a major catalyst leading girls to run 
away from home, which, as discussed previously, is a frequent cause of 
their arrest (Chesney-Lind & Okamoto, 2001; Bloom & Covington, 2001).
    Girls' profound histories of victimization become a pathway into 
the juvenile justice system in these numerous ways, but using detention 
and incarceration punishes and re-victimizes the victim and fails to 
provide states and localities with incentive to properly address girls' 
victimization in the public health, child and family services, and 
victim services systems. As a January 2010 report by the U.S. 
Department of Justice made clear, sexual victimization is occurring at 
alarmingly high levels in juvenile facilities across the country (Beck, 
Harrison & Guerino, 2010).
Mental and Physical Health
    Generally speaking research shows that girls in the juvenile 
justice system are more likely than boys to have a mental health 
disorder and specifically to be diagnosed with internalizing disorders 
such as anxiety and depression (Teplin et. al., 2002; Shufelt et al., 
2006; Wasserman et al., 2005). Moreover, there are clear connections 
between the well-documented mental and behavioral health needs of girls 
in the juvenile justice system and their histories of trauma and 
victimization. Detention and the juvenile justice system are not 
designed to treat girls with mental health issues, who could be treated 
effectively in their homes using community mental health resources. 
When systems detain and incarcerate girls whose behavior is driven by 
significant mental health needs, they are punishing the victim, and 
relieving the mental and public health systems of their responsibility 
for these youth.
    While the mental health of girls in the juvenile justice system has 
received considerable attention, girls' significant and increasing 
physical health needs warrant more attention. Rates of STDs among girls 
in the juvenile justice system are higher than for girls in the general 
population or boys in the juvenile justice system (Centers for Disease 
Control and Prevention, 2007). Moreover, their risky sexual behaviors 
and drug use puts them at risk for Hepatitis B and C and HIV (Elkington 
et. al., 2008; Teplin, Mericle, McClelland, & Abram, 2003). Although 
further study of this issue is needed, pregnancy rates among girls in 
the juvenile justice system are higher than among girls in the general 
population (Gallagher, Dobrin, & Douds, 2007). These pregnancies are 
complicated by substance use, post-traumatic stress disorder, youth and 
complex family and personal circumstances (Braverman & Morris, in 
press). Given their many health challenges, continuous and seamless 
access to health care is critical for girls in the juvenile justice 
system and the next generation of children.
Collaboration Across Systems and with Girls
    Because girls' offending is often tied to families, trauma 
histories, and mental health needs, girls in the juvenile justice 
system commonly have histories in the child welfare system or are 
simultaneously in the juvenile justice and other systems. The following 
catalogue of systems and services is typical among girls I represent: 
contact with the child welfare system as a status offender or abused 
child, the juvenile justice system including probation and/or a 
commitment agency, the education system often as a special education 
student, the public health system often for reproductive health issues 
such as sexually transmitted illness, and the mental health system. 
These multiple system involvements bring with them multiple case and 
social workers, courts and lawyers.
    For girls, to whom development of strong consistent relationships 
is critical to a sense of security and identity, the lack of continuity 
of care and placement that results from so many different agency 
involvements is particularly frightening and traumatic. In all youth 
cases, but particularly in girls' cases typified by multiple system 
involvement, community-based, wrap-around services are critical and 
states should be encouraged to find ways to work across traditional 
agency boundaries to provide for the needs of the whole girl.
Data by Gender, Race and Ethnicity
    Although there are clear national patterns among girls in the 
juvenile justice system and there are principles to be drawn from 
evidence-based practices that can be applied for girls across 
jurisdictions nationally, the precise nature and mix of practices and 
programs needed to address the challenges posed by girls in individual 
juvenile justice systems will vary locally. Systems are state created, 
agencies are state or county run, and girls' behavior is closely linked 
to their families and local communities. Without data that is 
disaggregated by gender and cross-referenced by race and ethnicity, we 
cannot fully understand the challenges facing girls and which policies 
will be effective.
    JDAI jurisdictions are illustrative here as well. Local JDAI 
jurisdictions (juvenile justice systems) pinpoint ways in which girls 
are inappropriately detained by generating hypotheses based on national 
data and then always fully examining the operation of their system 
through data disaggregated by gender, race and ethnicity. The data is 
discussed and analyzed by a stakeholder group that represents the 
juvenile justice and other systems as well as community programs and 
constituencies relevant to girls' issues, to gather a full 
understanding of the issue and design revised practices and programs to 
better serve the girls (Sherman & Irvine, in press).
    Without that detailed data Nevada jurisdictions would not have seen 
that girls were being disproportionately detained for domestic 
violence, and Missouri jurisdictions would not have seen that African 
American girls were disproportionately entering detention for failed 
foster care placements. In every jurisdiction I have worked with, 
detailed data collection and analysis, disaggregated by gender and 
cross-referenced by race and ethnicity has been the key to 
understanding girls' issues and designing effective solutions.
``Grace's'' Story
    Recently I have been working on a case study of a young woman, I'll 
call her ``Grace'', who is now 24 years-old and spent much of her 
childhood first in the foster care system in Massachusetts as an abused 
child and then in the delinquency system as a runaway girl. She was 
committed to the delinquency system for ``disturbing a school 
assembly'' when she was 15 years old, living in a foster home 2 hours 
away from her sisters and grandmother and suffering from depression. 
She has never been charged with another crime since. But she did run 
away from foster care frequently, cut herself and behaved in other ways 
that were dangerous to herself and rightly caused concern on the part 
of the systems charged with her care. The systems however reacted by 
locking her in detention each time she failed in a placement or ran 
away. Like most juvenile justice systems, ours did not work well with 
child and family services and the mental health agency and, when 
confronted with the complex behavioral health issues presented by a 
girl with a childhood filled with loss and trauma, defaulted by placing 
her in detention over and over again.
    During the two years from age 15 to 17, in the care of the 
delinquency and children's services agencies Grace was placed 44 times, 
in and out of emergency shelters, secure detention, foster care, 
kinship care and back to detention. She spent a total of 426 days in 
secure detention over 18 different detention placements, the longest of 
which was 65 days. For minor crime and running away, this girl with 
significant behavioral health issues, spent 54% of those two critical 
years of her life in locked detention, which is designed to hold kids, 
not to treat them.
    A very bright young woman, Grace turned 18 without hope of a high 
school diploma, and with little education about how to negotiate an 
adult world and deal with her distressed family. An extremely resilient 
young woman, Grace now attends school and is raising her two children. 
She struggles everyday to cope with poverty, mental health issues, and 
a family that is both a support to her and a drain on her limited 
resources. She describes the fear, isolation and instability she felt 
as she moved in an out of detention and foster homes during her teen 
years in the systems this way:
    You really do lose yourself through all the chaos, I say chaos 
because you're jumping from one place to another, one bed to another 
bed. Then you have you know, one [agency] to another [agency], one 
judge to another judge, one court system to another court system, and 
then you're locked up. You get dizzy. Have you ever been in a fight, 
and you don't even know who you're fighting, it's like a dizzy moment 
and it happened so quick, that's how it felt, my life. My life went so 
fast, and it could have went a little slower, if someone had stopped 
and slowed me down a little bit. (Sherman & Greenstone, in press)
Gender-Specific Approaches
    Gender-specific or gender-responsive are terms used interchangeably 
in the literature and essentially describe services and systems that 
strive to satisfy girls' unique developmental needs, personal 
characteristics, and life circumstances including understanding girls' 
pathways into the justice system, the multiple risk factors associated 
with girls' system involvement, and how these factors interact with one 
another. Although there are a number of overlapping recommendations for 
how services and systems can be gender-specific, three broad principles 
are consistent. Gender-specific systems and services are:
    <bullet> Emotionally and physically safe;
    <bullet> Attentive to girls' relationships; and
    <bullet> Collaborative, sharing power across systems and with girls 
in systems. (Sherman & Greenstone, in press).
Recommendations
    Under current policies, girls' involvement in the juvenile justice 
system is closely linked to their histories of family chaos, trauma, 
victimization, and mental and physical health needs. These high need 
girls find that services in the juvenile justice system are poorly 
suited to their situations and that juvenile justice policies can play 
an active role in labeling them as delinquent youth, preventing them 
from getting the help they need. To better understand and respond to 
the challenges posed by these girls I recommend:
    <bullet> Requiring jurisdictions to collect and analyze juvenile 
justice system data disaggregated by gender, and cross-referenced by 
race and ethnicity.
    <bullet> Eliminating the Valid Court Order exception to the 
deinstitutionalization of status offender mandate to prevent 
criminalization as well as provide incentives for jurisdictions to 
develop appropriate programming and community services.
    <bullet> Encouraging the use of community-based, wrap-around 
services coordinated across agencies for girls with high social service 
and mental health needs rather than use detention;
    <bullet> Additional research on girls and the system practices 
affecting them, particularly on the prevalence and needs of pregnant 
and parenting girls in the juvenile justice system and alternatives to 
juvenile justice involvement for commercially sexually exploited girls, 
two areas of high need for girls, about which we have an incomplete 
understanding.
    Again, thank you for this opportunity to testify and I would be 
happy to answer any questions you have as you move forward on re-
authorization of the Juvenile Justice and Delinquency Prevention Act 
and consider its many implications for girls.
                               references
Acoca, L. (1999). Investing in girls: A 21st century strategy. Juvenile 
        Justice, 6(1), 3-31.
Beck, A. J., Harrison, P.M., & Guerino, P. (2010). Sexual Victimization 
        in Juvenile Facilities Reported by Youth, 2008-2009. Special 
        Report. Washington, DC: U.S. Department of Justice: Office of 
        Justice Programs: Bureau of Justice Statistics.
Bloom, B. & Covington, S. (2001, November). Effective gender-responsive 
        interventions in juvenile justice: Addressing the lives of 
        delinquent girls. Paper presented at the Annual Meeting of the 
        American Society of Criminology, Atlanta, GA.
Bloom, B., Owen, B., Deschenes, E.P., & Rosenbaum, J. (2002). Moving 
        toward justice for female juvenile offenders in the new 
        millennium: Modeling gender-specific polices and programs. 
        Journal of Contemporary Criminal Justice, 18(1), 37-56.
Bloom, B., Owen, B., & Covington, S. (2003). Gender-responsive 
        strategies: Research, practice, and guiding principles for 
        women offenders. Washington, D.C.: National Institute of 
        Corrections. Available from: http://www.nicic.org/pubs/2003/
        018017.pdf
Braverman, P. & Morris, R. (forthcoming 2011). The health of youth in 
        the juvenile justice system. In F.T. Sherman & F. Jacobs 
        (Eds.), Health and Well being in Juvenile Justice. Hoboken:NJ, 
        John Wiley & Sons.
Cauffman, E. (2008). Understanding the female offender. Juvenile 
        Justice, 18(2), 119-142.
Centers for Disease Control and Prevention. (2008) CDC HIV/AIDS Fact 
        Sheet. HIV/AIDS among youth. Accessed at www.cdc.gov/hiv.
Chesney-Lind, M., & Okamoto, S.K. (2001). Gender matters: Patterns in 
        girls' delinquency and gender responsive programming. Journal 
        of Forensic Psychology Practice, 1(3), 1-28.
Elkington K.S., Teplin L.A., Mericle A.A., Welty L.J., Romero E.G., 
        Abram K.M. (2008). HIV/ sexually transmitted infection risk 
        behaviors in delinquent youth with psychiatric disorders: A 
        longitudinal study. Journal of the American Academy of Child 
        and Adolescent Psychiatry, 47: 901-911.
Farley, M. & Kelly, V. (2000). Prostitution: A critical review of the 
        medical and social sciences literature. Women & Criminal 
        Justice. 11(4), 29-64.
Gallagher, C.A., Dobrin, A., Douds, A.S. (2007b). A national overview 
        of reproductive health care services for girls in juvenile 
        justice residential facilties. Women's Health Issues,17, 217-
        226.
Goodkind, S., Ng, I., & Sarri, R.C. (2006). The impact of sexual abuse 
        in the lives of young women involved or at risk of involvement 
        with the juvenile justice system. Violence Against Women, 
        12(5), 456-477.
Hayes, L.M. Juvenile Suicide in Confinement: A National Survey. (2009). 
        OJJDP. U.S. Department of Justice Office of Justice Programs. 
        Accessed 8/3/09 at www. ojjdp.ncjrs.org
Kelly, P.J., Owen, S.V., Peralez-Dieckmann, E., & Martinez, E. (2007). 
        Health interventions with girls in the juvenile justice system. 
        Women's Health Issues, 17, 227-236.
Lederman, C.S., Dakof, G.A., Larrea, M.A., & Li, H. (2004). 
        Characteristics of adolescent females in juvenile detention. 
        International Journal of Law and Psychiatry, 27, 321-337.
Mendel, R. A. (2009). Two decades of JDAI: From demonstration project 
        to national standard. The Annie E. Casey Foundation.
Puzzanchera, C. (2009). Juvenile Arrests 2008. Juvenile Justice 
        Bulletin. Washington, DC: U.S. Department of Justice: Office of 
        Justice Programs: Office of Juvenile Justice and Delinquency 
        Prevention.
Sherman, F.T. (2005). Detention reform and girls: Challenges and 
        solutions (13). Baltimore: Annie E. Casey Foundation.
Sherman, F.T. (2009). Reframing the Response: Girls in the Juvenile 
        Justice System and Domestic Violence. Juvenile and Family 
        Justice Today 18: no.1 (Winter 2009): 16-20.
Sherman, F.T. & Greenstone, J. (forthcoming 2011). The role of gender 
        in youth systems: Grace's story. In F.T. Sherman & F. Jacobs 
        (Eds.), Health and Well being in Juvenile Justice. Hoboken:NJ, 
        John Wiley & Sons.
Sherman, F.T. & Irvine, A. (forthcoming 2010). Using JDAI Strategies to 
        reduce the Detention of Girls: A practice Guide to Juvenile 
        Detention Reform (5). Baltimore: Annie E. Casey Foundation.
Shufelt JL, Cocozza JJ. Youth with Mental Health Disorders in the 
        Juvenile Justice System: Results from the Multi-State 
        Prevalence Study. June 2006. Research and Program Brief, 
        National Center for Mental Health and Juvenile Justice. 
        Accesssed 8/2/09 at www.ncmhjj.com
Sickmund, M. Sladky, T.J., Kang W.& Puzzanchera, C. (2008). ``Easy 
        Access to the Census of Juveniles in Residential Placement.'' 
        Available: http://ojjdp.ncjrs.gov/ojstatbb/ezacjrp/
Spangenberg, M. (2001). Prostituted youth in New York City: An 
        overview. New York City: ECPAT-USA.
Teplin, L.A., Abram, K.M., McClelland, G.M., Dulcan, M.K., Mericle, 
        A.A. (2002). Psychiatric disorders in youth in juvenile 
        detention. Archives of General Psychiatry, 59, 1133-1143.
Teplin L.A., Mericle A.A., McClelland G.M., Abram K.M. (2003) HIV and 
        AIDS risk behaviors in juvenile detainees : Implications for 
        public health policy. American Journal of Public Health, 93, 
        906-912.
Timmons-Mitchell, J., Brown, C., Schulz, S.C., Webster, S.E., 
        Underwood, L.A., & Semple, W.E. (1997). Comparing the mental 
        health needs of female and male incarcerated juvenile 
        delinquents. Behavioral Sciences and the Law, 15, 195-202.
Wasserman, G.A., McReynolds, L.S., Ko, S.J., Katz, L.M., Carpenter, 
        J.R. (2005). Gender differences in psychiatric disorders at 
        juvenile probation intake. American Journal of Public Health, 
        95,131-137.
Zahn, M.A., et al. (2008). The Girls Study Group: Violence by Teenage 
        Girls: Trends and Context. Washington, D.C.: U.S. Department of 
        Justice: Office of Justice Programs: Office of Juvenile Justice 
        and Delinquency Prevention.
                                 ______
                                 
    Chairwoman McCarthy. Thank you.
    Ms. Carrion?

   STATEMENT OF RACHEL CARRION, FORMER DETAINED YOUTH, BOARD 
            MEMBER, COMMUNITY CONNECTIONS FOR YOUTH

    Ms. Carrion. Good morning. My name is Rachel Carrion, and I 
am here today to talk to you about my experience with the New 
York juvenile justice system. Thank you for this chance to tell 
my story.
    When I was 15 years old, my mother passed away from breast 
cancer, and I began smoking marijuana to cope with the loss. I 
was also very angry, and as a result of my anger I got into a 
fight with a young woman and I was arrested. I was arrested and 
then sent to an ATD program, which is an alternative-to-
detention program. At the ATD program, I could not keep a 
negative toxicology report, so they remanded me. And they 
remanded me to an out-of-city, upstate program center.
    When I arrived on the campus, I walked into just violence--
violence amongst the residents and peers, violence amongst the 
staff members and the residents. You know, it was really bad. I 
witnessed girls beating up each other and being sent to ICU, 
staff members physically fighting--like, not restraining, but 
fighting the youth to, I guess, try to keep them in control. 
Other incidents where I would try to leave the facility that I 
was in, I would try to go outside, and staff members would grab 
me by my hair and slam me to the floor. I am sure that wasn't 
protocol.
    Another thing is, after a few months of being on the 
campus, I got into a sexual relationship with a male staff 
member, and I was about 15 years old and he was 30. Because of 
the relationship that I had with him, you know, he would bring 
me in drugs, he would bring me in cigarettes. Any kind of 
contraband I wanted I had, because I was sleeping with this 
man. He would also--after hours, I would go AWOL from the 
cottage I was in, and he would sneak me off the campus and take 
me to local motels and drop me off right back on the campus 
while he went home. The staff member was fired but not because 
of our relationship. He was fired because the program did 
random drug screens on their employees and his came back 
positive.
    So my stay in this program was very bad.
    When I returned home, because my addiction to marijuana was 
never treated, you know, my behavior and my drug use just 
continued to worsen, and I began to solicit my body to support 
my drug habit. I ran away from home, I left home, and I was 
prostituting on the streets for drugs.
    I wound up getting pregnant. And when I gave birth to my 
daughter, that is when I finally got in contact with my family. 
That was about a 6-month period of me being a runaway on the 
streets. When my family got to me, they put me into a treatment 
facility located on Long Island. It was called Teen Challenge. 
It was a faith-based program. And this is where the staff 
members actually tried to treat my addiction.
    Because of child visitation, because of the courts, I could 
not stay on Long Island because my daughter was in Manhattan. 
So I was moved to a Bronx treatment center called Odyssey 
House. While I was in Odyssey House, I got one-on-one treatment 
with counselors. I stayed in group settings with other peers 
who went through the same or were going through the same that I 
was going through. Basically, these staff members really tried 
to help me instead of, you know, put me down. They gave me a 
lot of positive feedback. You know, they encouraged the girls, 
``You can do this. We can help you. Follow these 12 steps. You 
can stay clean. You don't have to use. There are other ways of 
coping with whatever trauma or whatever you have gone 
through.''
    So while I was in the Odyssey House, I obtained my GED. I 
got training as a home health aide. I am also a peer educator. 
I go out and I speak to young women about safe sex, you know, 
and how important it is because there are so many diseases out 
there.
    I got full custody of my daughter. She is 3 years old, and 
she is a blessing. I am now an active board member of Community 
Connections and an advocate. And I plan on being a substance 
abuse counselor, so I am also enrolled in college.
    This committee is responsible for working on the Juvenile 
Justice and Delinquency Prevention Act. Unfortunately, the 
current JJDPA law does not have anything that protects youth in 
juvenile justice facilities from the conditions that I faced. I 
recommend that the committee include language in the JJDPA to 
make facilities safer for youth. I have attached 
recommendations on this issue from national juvenile justice 
organizations to my testimony.
    In closing, I would like to thank you guys for listening to 
my story. I would like to encourage the committee to make sure 
that no other girls have to go through what I went through and 
to get the treatment and help that they need.
    Thank you again for having me here today.
    [The statement of Ms. Carrion follows:]

      Prepared Statement of Rachel Carrion, Former Detained Youth,
      Board Member, Community Connections for Youth, New York, NY

    Good afternoon. My name is Rachel Carrion and I am here today to 
talk about my experience with New York's juvenile justice system. Thank 
you for this chance to tell my story.
    My experience with the system started when I was 15 years old. I 
was arrested for the first time when I got into a fight with another 
girl and was charged with assault. When I was arrested, I was having a 
rough time in my life--my mother had just passed away and I was very 
depressed. In order to deal with my depression and loss, I began 
smoking marijuana to ease the pain I was feeling.
    After my arrest, I was first sent to an alternative-to-detention 
(ATD) program run by Probation. In this program, I had to report every 
day to a center, which I did. However, I could not stop using drugs and 
the drug screenings the center did every week kept coming back 
positive. I needed help addressing my addiction, but instead of 
providing treatment, the ATD program sent me back to Family Court for 
violating the conditions of my release. The judge remanded me to a 
secure juvenile detention center in New York City where I was detained 
for six months while my court case proceeded. Eventually I was 
adjudicated a juvenile delinquent and sentenced to 12 months in a 
placement center in upstate New York, where I was supposed to get help 
in dealing with my substance abuse issues.
    When I first arrived at the center, I was greeted not by treatment 
opportunities, but by a culture of violence among my peers and staff 
members. During my stay, I--like many other young girls in the juvenile 
justice system--had some horrible experiences, which have left me 
scarred for life. I saw fights between girls in the facilities, 
including girls in the facility jumping other girls and fistfights. 
Some of the fights were so bad that staff had to take girls to the 
Intensive Care Unit at the local hospital. Staff did nothing to prevent 
these fights or to help girls feel safe. Staff also regularly used 
excessive force to keep control in the center. Once, when I wanted to 
go outside, a staff person grabbed me by the hair and yanked me to the 
ground for trying to leave without permission.
    Other staff would become too friendly with the girls and would even 
bring in cigarettes, drugs, and other contraband to give or sell to 
girl in the facility. Some male staff members took advantage of girls 
as well. After a few months on campus, a male staff member on campus 
who was in his 30s initiated a sexual relationship with me in exchange 
for bringing me drugs. In order to meet up, the staff member would 
arrange for me to leave the campus and pick me up in his car down the 
road from the facility. He would then transport me off campus to a 
local hotel. These activities were never documented and or questioned 
and although the staff member who I had the relationship with was 
eventually fired, it was only because he screened positive for drugs--
not because he was sexually exploiting me.
    Because of these experiences in the center, I continued to have a 
lot of behavioral problems that affected my rehabilitation. Although my 
family cared a great deal about me, the distance from my home in New 
York City and the upstate placement center kept them from visiting me, 
or being meaningfully involved in my reintegration plan. My addiction 
had never been treated and on my return home, my behavior began to 
spiral out of control. I started using heavier drugs and then began 
soliciting my body to support my growing drug habit. It got so bad that 
I left home and lived on the street, being sexually exploited by adult 
men in exchange for money or drugs. Eventually I became pregnant with 
my daughter and I was arrested for prostitution.
    Two days after giving birth to my daughter, with my family's help 
and support, I began my road to recovery by entering two private 
residential treatment programs: Teen Challenge and Odyssey House. Teen 
Challenge is a faith-based residential treatment program in Long Island 
that finally helped me to address my substance abuse issues. It was in 
Teen Challenge that I found my faith in God and the courage to start 
over in life. After beginning my treatment at Teen Challenge, I went to 
Odyssey House in the Bronx where I completed my treatment, obtained my 
GED, and received training to become a peer educator and a Home Health 
Aide. Being in a program close to my family let them visit me 
frequently, and they were very involved in my treatment. My brother and 
his wife took custody of my daughter and the Family Court allowed 
weekly supervised visits with my child with the goal of returning full 
custody to me if I completed my treatment. In this therapeutic 
community, I attended constant meetings and support groups, spoke to 
counselors and to my peers, and received positive feedback. This 
feedback helped me to learn to retrain my thinking so I know that I 
struggle with something that may never go away, but that can be 
maintained as long as I have support and am honest about how I'm 
feeling and continue to strive to complete my goals I have set for my 
self.
    My experiences at the juvenile justice facility in and the 
treatment centers could not be more different. Not only did the 
juvenile justice system not address my underlying substance abuse issue 
and take me away from my family support system, but the experiences I 
had at the center actually made things much worse. It was when I came 
back to my community--close to my family and friends--that I had the 
support to make a positive change for myself.
    By the grace of God, my hard work, and my family's dedication, I am 
now back on the right track. After completing the program, I got my 
daughter back and I am now raising her with the help and support of my 
brother and his wife. I am interested in pursuing a career as a 
substance abuse counselor to help those who struggle with addiction, 
and have been accepted as a student at Bronx Community College, where I 
hope to begin classes in the fall. I am actively involved in the 
Promised Land Church in the South Bronx where I encourage and support 
other young women who have been through similar experiences. I also 
joined Community Connections for Youth, a grassroots non-profit 
organization that promotes and develops community-based alternatives to 
incarceration for youth. I serve as a member of the organization's 
Board of Directors, speaking out on issues faced by youth in the 
juvenile justice system and making sure the organization's programs 
meet the needs of the youth it serves.
    This Committee is responsible for working on the Juvenile Justice 
and Delinquency Prevention Act (JJDPA). Unfortunately, the current 
JJDPA law does not have anything that protects youth in juvenile 
justice facilities from the conditions that I faced. I recommend that 
the Committee include language in the JJDPA to make facilities safer 
for youth. I have attached recommendations on this issue from national 
juvenile justice organizations to my testimony.
    In closing, I would like to encourage the Committee to make sure 
that no other girl has to go through what I did to get the treatment 
and help that they need. Thank you again for having me here today.
                                 ______
                                 
                         act 4 juvenile justice

 A Campaign of the Juvenile Justice & Delinquency Prevention Coalition
                             www.act4jj.org

    What are the current JJDPA provisions regarding protection of youth 
in juvenile detention and correctional facilities?
    The JJDPA currently does not address abusive conditions and 
practices in juvenile facilities. Traditionally, states have been 
responsible for institutional conditions and practices.
    How should the JJDPA be strengthened to protect youth in detention 
and correctional facilities?
    New provisions should be added to the JJDPA that:
    <bullet> Require states to stop dangerous practices such as hog-
tying and pepper spray that create an unreasonable risk of physical 
injury, pain, or psychological harm, and require states to assure that 
JJDPA funds are not used for dangerous practices;
    <bullet> Establish incentive grants for States to reduce or 
eliminate state-supported use of dangerous practices, unnecessary use 
of isolation and room time, and unreasonable use of restraints;
    <bullet> Establish incentive grants for States to provide evidence-
based mental health, substance abuse and rehabilitative services to 
youth in custody;
    <bullet> Provide financial support for States to conduct necessary 
training for facility staff and to adopt best practices in programming, 
behavior management, and security;
    <bullet> Establish community advisory groups to monitor all 
juvenile detention and correctional facilities and, where appropriate, 
seek to improve conditions in those facilities;
    <bullet> Require the Office of Juvenile Justice and Delinquency 
Prevention (OJJDP) to collect data from the states and report to the 
public on uses of dangerous practices, isolation and room time in the 
nation's juvenile detention, correctional and residential treatment 
facilities; and
    <bullet> Make best practices available nationwide through research, 
training and technical assistance to improve dangerous conditions of 
confinement and reduce unnecessary use of isolation and room time.
    Why are these changes needed?
    Reports of widespread abuses in institutions across the country 
demonstrate the importance of updating the Act to ensure the safety of 
children in custody.
    <bullet> In California, authorities failed to provide adequate 
medical and mental health treatment, and facility staff regularly used 
pepper spray on youth.\i\
---------------------------------------------------------------------------
    \i\ Rothfeld, Michael, ``Juvenile Prison System Needs Reform 
Lawyers Say,'' Los Angeles Times, Feb. 18, 2008, http://
www.latimes.com/news/local/la-me-youth18feb18,0,5845357.story; Boyd, 
Ralph, Investigative Findings Letter, U.S. Department of Justice, Civil 
Rights Division, April 9, 2003, http://www.usdoj.gov/crt/split/
documents/la--county--juvenile--findlet.pdf.
---------------------------------------------------------------------------
    <bullet> In Indiana, staff sexually assaulted youth in one 
facility, and failed to protect youth from violence in several juvenile 
facilities.\ii\
---------------------------------------------------------------------------
    \ii\ Kim, Wan, Investigative Findings Letter, U.S. Department of 
Justice, Civil Rights Division, Aug. 6, 2007, http://www.usdoj.gov/crt/
split/documents/marion--juve--ind--findlet--8-6-07.pdf; ``Justice 
Department Reaches Settlement Regarding Conditions at Two Indiana 
Juvenile Justice Facilities,'' U.S. Fed. News Service, Feb. 8, 2006, 
http://www.usdoj.gov/opa/pr/2006/February/06--crt--066.html; Schlozman, 
Bradley, Investigative Findings Letter, U.S. Department of Justice, 
Civil Rights Division, Sept. 9, 2005, http://www.usdoj.gov/crt/split/
documents/split--indiana--plainfield--juv--findlet--9-9-05.pdf.
---------------------------------------------------------------------------
    <bullet> In Mississippi, staff in state facilities hog-tied youth, 
put them in shackles, and stripped youth and put them in dark rooms for 
12 hours a day.\iii\
---------------------------------------------------------------------------
    \iii\ Nossiter, Adam, ``Lawsuit Filed Over Treatment of Girls at 
State Reform School in Mississippi,'' New York Times, July 12, 2007, 
http://www.nytimes.com/2007/07/12/us/12prison.html; Associated Press, 
``Mississippi Center Accused of Abuse,'' July 12, 2007, http://
www.usatoday.com/news/nation/2007-07-12-mississippi--N.htm; Mohr, 
Holbrook, ``Youth Prisons Get Scrutiny,'' Associated Press, Mar. 3, 
2008, http://www.mercurynews.com/crime/ci--8435681.
---------------------------------------------------------------------------
    <bullet> In Ohio, girls in a state facility were sexually assaulted 
by male staff.\iv\
---------------------------------------------------------------------------
    \iv\ Associated Press, ``Ohio Settles Suit Over Juvenile Jails,'' 
April 4, 2008, http://www.cnn.com/2008/CRIME/04/04/
ohio.youth.prisons.ap; Investigative Findings Letter, U.S. Department 
of Justice, Civil Rights Division, May 9, 2007, http://www.usdoj.gov/
crt/split/documents/scioto--findlet--5-9-07.pdf.
---------------------------------------------------------------------------
    <bullet> In Texas, youth filed hundreds of complaints over physical 
and sexual abuse and repeated use of pepper spray by staff in juvenile 
facilities.\v\
---------------------------------------------------------------------------
    \v\ Swanson, Doug, ``Officials Indicted in Abuse at TYC'', The 
Dallas Morning News, April 10, 2007, http://www.dallasnews.com/
sharedcontent/dws/news/texassouthwest/stories/
041107dntextyc.be59c6b.html; Ramshaw, Emily, ``Complaints Pour In to 
TYC Abuse Inquiry,'' Dallas Morning News, March 13, 2007, http://
www.dallasnews.com/sharedcontent/dws/news/texassouthwest/stories/DN-
tyc--13tex.ART.State.Edition1.44911b8.html; Becka, Holly, et al., 
``Young Inmates Endured 'Deplorable Conditions,''' Dallas Morning News, 
Oct. 3, 2007, http://www.dallasnews.com/sharedcontent/dws/dn/
latestnews/stories/100307dntextyc.35bdf47.html.
---------------------------------------------------------------------------
    <bullet> In Maryland and Tennessee, youth were restrained on the 
ground by staff using dangerous methods; three youth died at two 
facilities in such restraints.\vi\
---------------------------------------------------------------------------
    \vi\ Garland, Greg and Linskey, Annie, Restraint Called Common at 
School Youths Describe Practices at Facility Where Boy Died, Baltimore 
Sun, Feb. 2, 2007; Amons, Nancy, Youth Center on CDS' Radar Before 
Deaths, June 27, 2007, http://www.wsmv.com/news/13583136/detail.html.
---------------------------------------------------------------------------
    Youth should be safe when taken into custody; they should not leave 
the juvenile justice system worse off than when they entered. National 
experts agree that the best way to keep youth safe in custody is 
through a combination of adequate staffing; engaging programming; 
effective behavior management focused on positive youth development; 
and a clear system for responding to crises that incorporates effective 
de-escalation techniques and uses safe methods of physical restraint 
only as a last resort.
    The federal government, through OJJDP, has an opportunity to 
improve the safety of incarcerated youth by requiring states to examine 
their staffing, programming and crisis response strategies in juvenile 
justice facilities and eliminate dangerous practices. States need more 
technical assistance and training in order to replace dangerous 
practices with safer approaches, and national data collection will 
support these efforts. Incentive grants can encourage innovation and 
develop more models of effective, safe care for youth in custody.
                                 ______
                                 
    Chairwoman McCarthy. Thank you, Ms. Carrion, for sharing 
that story with us. I am sure it is very difficult. We have an 
awful lot of young people here in this audience, and for them 
to hear your story, it took great courage on your part. We 
appreciate it.
    Judge Huff?

          STATEMENT OF THE HON. J. BRIAN HUFF, JUDGE,
                        JEFFERSON COUNTY

    Judge Huff. Thank you, Chairwoman McCarthy, and thank you, 
members of the committee, for inviting me to come and speak and 
for having an interest in this topic.
    I am the presiding judge, like you said, of the Jefferson 
County Family Court in Birmingham, Alabama. And I am going to 
draw my testimony from my 15 years of experience as a lawyer 
and as a judge handling delinquency and dependency child abuse 
and neglect cases.
    I am here to ask you specifically to reauthorize the JJDPA 
with an elimination of the VCO exception, because I believe it 
is morally wrong and I believe it is fiscally, with an ``F,'' 
wrong.
    A status offense, like you said, is an offense committed by 
a child which if committed by an adult would not be an offense. 
It is not a criminal offense. It is running away. It is 
truancy. It is things that children shouldn't do, but it is not 
a criminal offense.
    Federal law already prohibits the incarceration of children 
for committing status offenses. However, there is a provision, 
there is an exception called the violation of the valid court 
order exception. I would typically take that type of a child, 
as a judge, and I would place that child on probation.
    And, Chairwoman McCarthy, I might incarcerate that child 
for any violation of a court order, not just the commission of 
a new offense. I would oftentimes order a child to properly 
conduct themselves, whatever that means, and a violation of 
that order could result in incarceration. I know I am not the 
only judge out there who has done it. I know that it is rampant 
throughout the State of Alabama and throughout the country.
    I would put those children in jail. Professor Sherman 
mentioned detention. And, Chairwoman, you mentioned detention. 
I think a better word is ``jail.'' I have attached a couple of 
photographs to my written testimony, and I think that sums up 
what these children throughout the country face. They are 
sitting in a cell with cinderblock walls, with bars, with a 
stainless steel toilet with no lid, with a bed with a mattress 
that may be two or three inches thick. And that is a jail; that 
is not a detention center.
    I want to mention one child in particular that I placed in 
a detention center, in a jail, and her name was Katie. Katie 
first came to me when she was about 11 years old. Her mother 
filed a beyond control petition, an ungovernable petition, 
because Katie had been drinking, Katie had been smoking, Katie 
had been doing some things that 11-year-olds shouldn't do. 
Well, in all of my infinite wisdom, I placed this child on 
probation and ordered her, among other things, to properly 
conduct herself. Well, Katie didn't properly conduct herself 
and subsequently spent 1 of the next 4 years, spent an entire 
year in a juvenile prison, in a juvenile correctional 
institution.
    That didn't solve Katie's problems. What we found out after 
the fact was that when Katie's mother filed that petition, 
Katie was being sexually abused by her brother, stepbrother, 
who lived in the home with Katie and was currently abusing her. 
Katie's parents didn't do anything to stop the sexual abuse. My 
incarceration of Katie didn't solve Katie's problems. I 
shouldn't have had that option, and it is that simple.
    Katie doesn't just live in Alabama. Katie lives in New 
York, and she lives in New Hampshire, and she lives in 
Tennessee, and she lives in Texas, she lives in Pennsylvania 
and Illinois and Virginia and in every one of the 50 States. 
And in many of those 50 States, the judges have the authority 
to incarcerate those children under the valid court order 
exception.
    What I am asking this committee and Congress to do is do 
what New York State has done, Chairwoman, and that is: Take 
that option off the table for us judges. Take away the easy way 
out. Don't let us incarcerate those children.
    It costs approximately $150 per day to incarcerate a child 
in a detention center in the State of Alabama. It costs closer 
to $200 as a national average. It costs much less to use one of 
the alternative programs that the professors have talked about 
and will talk about, and you have better results.
    Finally, I want to add that what I am discussing is 99 
percent philosophy. We didn't make these changes because we 
were ordered to in Birmingham. We came to realize that what we 
were doing was wrong. Like I said, it was expensive, it was 
morally wrong, and it took a change in court philosophy. We 
realized that when we locked up those kids they met criminals 
when they were in that detention centers, and we realized that 
we reinforced the belief that they were worthless. We wanted to 
stop being part of the problem and start being part of the 
solution.
    I would ask this committee to vote in favor of 
reauthorization with the elimination of the VCO. I would ask 
the committee to support improvement in the conditions of 
confinement for those kids who do have to be incarcerated. And 
I would ask the committee to support the collection and 
analyzation of data, because if we don't know what we are 
talking about, then we don't know what we need to do, and that 
can only be done with data.
    Chairwoman, thank you for letting me run over.
    [The statement of Judge Huff follows:]

       Prepared Statement of Hon. J. Brian Huff, Presiding Judge,
          Jefferson County Family Court, North Birmingham, AL

    Good morning. Chairwoman McCarthy and Members of the Committee, it 
is my distinct honor to speak with you today regarding needs and 
challenges faced by girls who come before the juvenile court. I am 
Brian Huff, the Presiding Judge of the Jefferson County Family Court in 
Birmingham, Alabama, where I hear, among other things, juvenile 
delinquency, ``children in need of services,'' as well as child neglect 
and abuse cases. I was appointed to the bench in 2005 and elected in 
2006.
    I have helped to create and oversee Reclaiming Our Youth--a multi-
faceted, collaborative, juvenile justice reform effort. The goal of the 
initiative is to improve the local juvenile justice system from intake 
to disposition by working with school officials, law enforcement, 
service providers and families to promote positive youth development, 
restorative justice and family involvement within their communities. 
The effort has reduced the juvenile incarceration rate in Jefferson 
County by more than 70% while returning millions of dollars back to the 
community through state grants. I have also led the Birmingham City 
Schools' Collaborative, which developed Birmingham's School Offense 
Protocol. The protocol established alternatives to incarceration for 
children who commit minor delinquent offenses within the school system. 
As a result, arrests of minors from the Birmingham City School System 
have fallen by more than half in the two years.
    I am active in the Alabama Juvenile Judges' Association, and sit on 
the boards of directors for the Alabama Department of Youth Services 
and the Children's First Foundation. I am also past chair of the Family 
Law Section of the Alabama State Bar and the Birmingham Bar 
Associations, an ongoing member of the National Council of Juvenile and 
Family Court Judges and the National Association of Drug Court 
Professionals, and an active participant in the Act-4Juvenile Justice 
Campaign to inform a strong reauthorization of the federal Juvenile 
Justice and Delinquency Prevention Act (JJDPA).
Girls Charged with Status Offenses
    My comments today are primarily drawn from my experience hearing 
dependency and delinquency cases involving children, youth and 
families. I will focus on girls that come before the court and, more 
specifically, girls who come before the court for status offenses.
    Status offenses are those offenses considered by the delinquency 
court only because of the minor status of the child involved--in fact, 
these ``offenses'' would not be criminal matters at the age of 
adulthood. Such matters include truancy, violating curfew, running away 
from home, and behavior that may cause a parent or guardian to deem a 
child ungovernable.
    I want to begin with a true story about a girl I will refer to as 
``Katie.'' Katie is now 15-years-old. She first came to the attention 
of my court when she was 11. Her mother filed a complaint against her 
for being ``ungovernable,'' which is a status offense in most states. 
Her mother complained that Katie was smoking cigarettes, drinking 
alcohol and talking back. Years later, we learned that Katie's troubles 
began when she was raped by her stepbrother--at age 11. Despite a 
doctor's finding that Katie had contracted syphilis as a result of the 
rape, Katie's parent did not take steps to protect her, and her 
stepbrother remained in the house for years.
    When Katie's mother first came to us, we didn't ask the right 
questions. Instead, we simply accepted the complaint, and Katie was 
placed under a court order that essentially commanded her to behave in 
a manner that is fairly standard in these cases. It said, ``the child 
shall properly conduct herself at all times.'' Not surprisingly, 
Katie's behavior did not change as a result of the court order. The 
only difference was that her misbehavior was now treated as a legal 
matter.
    And so at age 11, Katie began her history with the juvenile justice 
system. Three years later, she has spent more than a year behind bars 
for failing to ``properly conduct herself'' and she is pregnant.
    Today, our court's approach to cases like Katie's is fundamentally 
different. Rather than pushing the case through the normal process, we 
would instead talk with Katie and her mother and refer her to agencies 
and organizations that could figure out what was really happening. We 
now recognize that youth like Katie can and should be steered clear of 
further court involvement. My credo as a judge is much like the 
Hippocratic Oath, to ``do no harm'' in such cases. This is particularly 
critical with respect to girls, like Katie.
    Many girls brought before the court for status offenses have been 
traumatized by abuse--sexual abuse, and neglect,\i\ and judges are 
indeed in a position to guard against any further trauma. In fact, the 
National Institutes for Justice Study of girls in the juvenile justice 
system in South Carolina demonstrated that the vast majority of girls 
in the system had experienced multiple forms of victimization related 
to violence and sexual assault. In fact, fully 98% of the girls in this 
representative study reported victimization--nearly 70% were victimized 
by their caregivers prior to system involvement.\ii\
    Placing girls who have committed status offenders in lock-ups is 
stigmatizing and counters all goals of rehabilitation. Detention and 
incarceration interrupt educational progress, pro-social relationships 
with peers, family and caring adults, and often also undercut job 
training and employment. Feelings of social isolation and hopelessness 
are exacerbated, not reduced--making it more likely that a young person 
will feel alienated.
    Girls are disproportionately affected by exceptions to the 
Deinstitutionalization of Status Offenders core requirement. Girls are 
reported to account for 14% of youth in juvenile facilities for 
delinquency, but 41% of those in facilities for status offenses.\iii\ 
Common sense and research tells us that imprisonment is not a positive 
approach to status offending behavior. Detention in general, and 
particularly for status offenders and other low-risk youth, has been 
widely shown to be destructive rather than productive, independent of 
poor conditions of confinement. Obviously, the damage and trauma 
inflicted by incarceration in a clean and safe facility are magnified 
when youth are held in overcrowded and abusive facilities, which are 
far too common. Yet, nearly 70% of detained youth are held in 
facilities operating above capacity, nationwide. Under such conditions, 
discipline can become unduly harsh; education and medical and mental 
health treatment are often meager. Among youth in crowded detention 
facilities, there is a high number of reports of suicidal behavior, as 
well as stress-related and psychiatric illness. Sadly, too, youth of 
color--including girls of color--are more often detained than their 
white counterparts.\iv\
    To be clear, as a juvenile judge, I am in a position to make life-
changing decisions involving the lives of children. Alabama is one of 
31 \v\ of the 56 U.S. states, territories and District of Columbia that 
allows secure detention as a sanction for status offenders who violate 
a valid court order. I, however, understand the risks and choose not to 
exert my authority in this way.
    Some judges may find a young person to be difficult and frustrating 
when she challenges authority or violates a court order, and may 
believe it is justified to lock her up due to contempt of court or 
violation of an order. Yet, it is our job as judges to exercise our 
authority carefully and to serve the best interests of the child, 
family and community safety. All are better achieved through 
alternatives to detention or incarceration, in such cases.
Family and Community Connected Alternatives to Detention
    I would like to take moment to share a photo, taken by Richard 
Ross, of a young girl in a detention facility in Harrison County, 
Mississippi--depicting a detention cell much like many in southern 
states. [Photo 1 of 2]. Until the recent settlement of a 2009 class 
action lawsuit by the Southern Poverty Law Center on behalf of confined 
children in this facility, it operated at more than double its lawful 
capacity; 70% of the youth there were nonviolent; and most of the girls 
at the Harrison County detention center were locked-up for non-
delinquent acts and status offenses.\vi\
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Attorney advocates for the children confined in this facility cite 
the case of a 12 year-old girl locked up at the Harrison facility for 
60 days after her foster mother reported the child to the court for 
failing to take her medications. Because this young girl had come 
before the court previously for running away from her foster placement, 
her failure to obey her foster mother's rules may have been deemed a 
``violation of a valid court order,'' permitting the judge to detain 
her.
    Other facilities, including those in my home county, may be up to 
code and safe, as seen in this second photo by Ross, of a facility in 
Racine, Wisconsin, where cells are at least clean [Photo 2 of 2]. 
Whether in dingy and dangerous conditions or something better, I urge 
you to question the choice to spend hundreds of public dollars each day 
to lock-away non-delinquent, needy and troubled girls in cinderblock 
cells, rather than using more cost-efficient, proven methods of 
assisting them to achieve safety and stability at home, at school and 
in the community. In Jefferson County, we do not lock-up girls who are 
status offenders. We do not do so because it is plainly ineffective and 
further traumatizes youth who are already in distress.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    There is good reason to hesitate to jail parents or place children 
in foster care for truancy, staying out after curfew or running away. 
Removing the presence of a parent or for that matter the child from the 
school is typically counterproductive as a means of supporting school 
attendance and engagement. Where evidence exists, the threat of such 
sanctions--and the sanctions themselves--have not been shown to reduce 
or deter truancy.\vii\
    I have worked hard and collaboratively to reform the system and to 
create home-and community based alternatives for children in need of 
protective custody and services--not lock-ups--in my home state of 
Alabama. For instance, in Alabama we are working statewide to institute 
the Juvenile Detention Alternatives Initiative (JDAI) of the Annie E. 
Casey Foundation.\viii\
Recommendations
            Remove the VCO Exception to the Core Requirement to 
                    Deinstitutionalize Status Offenders
    Right now, this Subcommittee and the whole of the House Education 
and Labor Committee are charged with reauthorization of the Juvenile 
Justice and Delinquency Prevention Act (JJDPA). In place since 1974, 
the JJDPA provides important safeguards and resources to assist 
troubled, vulnerable and court-involved girls.
    A change to the JJDPA that I believe is most critical to protect 
vulnerable and exploited girls has already been approved by the Senate 
Judiciary Committee this past December, in the form of an amendment to 
the JJDPA's core requirement on Deinstitutionalization of Status 
Offenders. The amendment, which received bipartisan approval as part of 
S 678 in the committee, calls upon states to eliminate the ``valid 
court order (or VCO) exception''--a loophole that allows judges to 
place status offenders in locked detention.
    If passed into law, the court orders issued for Katie or the 
Mississippi 12-year-old that I described would no longer be allowable. 
Judges would no longer be able to lock-up non-delinquent girls out of 
frustration or a misguided sense of protectiveness. Furthermore, 
eliminating the VCO comports with law or practice in approximately two 
dozen states and territories already.
    Testimony given at the time of the passage of the JJDPA cited that 
status offenders should be ``channeled away'' from lock-ups and toward 
human service agencies and professionals to avoid creating greater 
social, emotional, family and/or peer-group upheaval among this highly 
vulnerable population. Yet, the JJDPA law has not adequately addressed 
alternatives along a continuum of home and community-connected services 
that would more appropriately and effectively address the needs of 
status offenders and their families. In the 1980s, the VCO exception to 
the core protection to Deinstitutionalize Status Offenders (DSO) was 
included in the JJDPA, but it left states to sort out the sanctioned 
judicial use of locked detention for status offenders. Researchers, 
legal scholars, as well as juvenile court professionals and advocates 
are seeking remedies to the problem of over-use of the valid court 
order (VCO) exception, as well as to problems that arise when federal 
and state law contradict.
    Overall, as a result of the DSO core requirement, since 1974, there 
has been an overall decline in the use of secure detention for status 
offenders. Yet, each year nearly 40,000 status offense cases still 
involve locked detention.\ix\ Of these, more than 30% or approximately 
12,000 nationwide would be prohibited if the VCO exception is removed 
from law.\x\ Troubled youth, children in need of protective services, 
runaways and many youth with behavioral health concerns wind up in 
detention, not because of worries about public safety, but because of a 
severe lack of community alternatives, a lack of system collaboration 
and a lack of knowledge among judges about what resources and effective 
approaches are available.\xi\
    Although status offenders are not dangerous, any juvenile judge 
will tell you that they are among the most frustrating youth that come 
before us. And when a status offender comes under the jurisdiction of a 
juvenile court, the easiest and most common response is to place the 
child under a court order to try to control their behavior. When they 
do not change their behavior--and they often do not--the same 
misbehavior that has frustrated the child's parents is now an affront 
to the court's authority. Many courts take that affront personally. As 
a result, the VCO exception often becomes the exception that swallows 
the rule.
    That has certainly been the case in Alabama. Until recently, my 
state incarcerated status offenders at a rate that far exceeded the 
national average. But in 2008, the Alabama Legislature voted 
unanimously to in the Alabama Juvenile Justice Act to take long-term 
confinement of status offenders off the table entirely. The Alabama Act 
also capped detention stays at 72 hours. This reform was championed by 
state and local leaders from both sides of the aisle and from every 
branch of government--including our Republican Governor and our 
Democrat Chief Justice.
    In your state, Madame Chair, the Vera Institute's Center on Youth 
Justice has also made inroads in addressing status offenses by 
increasing objective decision-making in status offense processes. In 
2002, New York State contracted with Vera to improve systems and 
services for status offenders and their families in 23 counties. As a 
result several counties took steps to refine their intake processes to 
incorporate more immediate crisis intervention, develop programmatic 
alternatives to non-secure detention and foster care placement, and 
provide more supportive services to status offenders and their 
families--especially truants--in lieu of court intervention. Momentum 
generated from these local reforms prompted the state to pass 
amendments to New York's Family Court Act in 2005 to enhance diversion 
requirements for status offenders and narrow the circumstances under 
which status offenders may lawfully be detained.\xii\
    Scholars from the Vera Institute and the American Bar Association 
suggest that through the JJDPA reauthorization Congress do the 
following to assist girls and other status youth:
    <bullet> promote increased use of social service agencies as first 
responders to status offense referrals, to assist with and promote pre-
court diversion.
    <bullet> remove the Valid Court Order exception so as to clear up 
the contradictory nature of the JJDPA requirement to deinstitutionalize 
with institutionalization pursuant to a VCO.
    There are many alternatives to institutionalization/detention of 
status offenders--shown to create positive outcomes for youth and 
families--including reduction in court referrals, such as Functional 
Family Therapy and Cognitive Behavioral Therapy. Also effective are 
intensive case management, non-secure shelter care and temporary crisis 
care, and family interventions and support--all of which may be 
supported by the Formula Funds (Title II) program of the JJDPA.
            Generate Greater and Better Resources for Effective 
                    Implementation of Federal Juvenile Justice Policy
    Regarding use of federal funds under the JJDPA, Congress should 
strongly consider prohibiting the use of federal funds for ineffective 
and damaging approaches such as highly punitive models shown to 
increase, rather than decrease re-arrest and re-offense, including boot 
camps, excessive use of physical restraint, force and punishment, and 
the building of large residential institutions.\xiii\
    When crafting State Three-Year Plans for delinquency prevention, 
the State Advisory Groups on Juvenile Justice, chartered and supported 
under the JJDPA, are in an ideal position to recommend the use of JJDPA 
funds for programs and practices that emphasize practices and policies 
that will benefit girls, such as ensuring gender-specific and competent 
prevention and community based services for girls, ensuring due 
process, effective assistance of counsel and case management, and 
providing alternatives to detention and incarceration--particularly for 
status youth. Congress should consider ways for the JJDPA funding 
streams to emphasize and elevate compliance with the core requirements 
of the JJDPA and initiatives that strive to limit a young person's 
court involvement, out-of-home placement or any sort of confinement 
while ensuring community safety.
    I also urge the Congress to consider ways to provide resources for 
field-based and field-strengthening research and evaluation that will 
refine and expand the array of best and evidence-based practices in 
delinquency prevention, intervention and treatment. Issues that states 
are hungry to address include the following, among others:
    <bullet> effective approaches for girls, as well as for diverse 
cultural and linguistic groups;
    <bullet> innovations to guard against bias and racial/ethnic 
disparities;
    <bullet> proactive approaches to truancy prevention;
    <bullet> ways to reduce school referrals to law enforcement;
    <bullet> effective approaches for positive family engagement.
    In addition, Congress should look to strengthen the implementation 
the JJDPA which addresses research, demonstration and evaluation and 
authorizes the federal Office of Juvenile Justice and Delinquency 
Prevention (OJJDP) administrator to ``conduct, encourage, and 
coordinate research and evaluation into any aspect of juvenile 
delinquency, particularly with regard to new programs and methods which 
seek to strengthen and preserve families or which show promise of 
making a contribution toward the prevention and treatment of juvenile 
delinquency.''
    Consider simple language changes in the JJDPA to state that the 
OJJDP administrator shall rather than may provide support for research, 
replication and high fidelity adaptation of evidenced-based practice 
models, across a wide range of racial, ethnic, geographic and societal 
circumstances--urban and rural, both in and outside of institutional 
settings for applications with many populations, girls, Native American 
youth, youth in the U.S. territories, Latino youth, African American 
youth, and others. Insist that the research and findings be made widely 
available to the public and backed-up with training and technical 
assistance to the parties principally charged with JJDPA 
implementation--state advisory group members and state juvenile justice 
specialists.
    Since 2002, juvenile justice appropriations to the states that 
support important priorities under the JJDPA such as continuums of 
care; alternatives to detention; gender-sensitive and gender-specific 
services and effective prevention initiatives have fallen by more than 
50%. Here, again, you have the opportunity to restore the research, 
evaluation, and funding resources, as well as training and technical 
assistance resources needed to meet critical needs for girls and other 
children involved with the court.
    You will find that these recommendations are in keeping with best 
practice and with the recommendations of the Coalition for Juvenile 
Justice--an association of the JJDPA State Advisory Groups--as well as 
the broad-based Act-4-Juvenile Justice Campaign that includes more than 
350 organizations in juvenile justice, law enforcement, youth and 
family service, child welfare, mental health and substance abuse 
treatment and representing the faith community, among others.\xiv\
    In closing, I wish to avail myself to you should you have any 
further questions. Many thanks for the opportunity to speak before you 
today.
                                endnotes
    \i\ Physicians for Human Rights, Health and Justice for Youth 
Campaign, ``Unique Needs of Girls in the Juvenile Justice System,'' 
2006.
    \ii\ DeHart, D.D., ``Poly-victimization of Among Girls in the 
Juvenile Justice System: Manifestations and Associations with 
Delinquency, University of South Carolina, October 2009.
    \iii\ Sickmund, Melissa, Sladky, T.J., and Kang, Wei. (2008) 
``Census of Juveniles in Residential Placement Databook.'' Online. 
Available: http://www.ojjdp.ncjrs.gov/ojstatbb/cjrp/
    \iv\ Coalition for Juvenile Justice, ``Unlocking the Future: 
Detention Reform in the Juvenile Justice System,'' January 2004.
    \v\ Unpublished JJDPA compliance monitoring data from the Office of 
Juvenile Justice and Delinquency (OJJDP), pertaining to 2007.
    \vi\ Per correspondence with the Southern Poverty Law Center, 2010.
    \vii\ National Center for Mental Health Promotion and Youth 
Violence Prevention (NCMHPYVP), Prevention Brief, 2006.
    \viii\ See: www.JDAIHelpDesk.org.
    \ix\ National Center for Juvenile Justice: www.ncjj.org.
    \x\ Unpublished JJDPA compliance monitoring data from the Office of 
Juvenile Justice and Delinquency (OJJDP), pertaining to 2007.
    \xi\ Schwartz, I., Barton, W., ``Reforming Juvenile Detention: No 
More Hidden Closets,'' 1997
    \xii\ See: see www.verainstitute.org.
    \xiii\ Mendel, Richard A. and American Youth Policy Forum, ``Less 
Hype, More Help: Reducing Juvenile Crime, What Works--and What 
Doesn't,'' 2000 and ``Less Cost, More Safety: Guiding Lights for Reform 
in Juvenile Justice,'' 2001.
    \xiv\ See: www.juvjustice.org and www.act4jj.org.
                                 ______
                                 
    Chairwoman McCarthy. Thank you, Judge. And I have to say 
that I am hearing from and I have spoken to judges around the 
country that understand that the system that is in place is not 
working. And, hopefully, when we reauthorize down the road, 
hopefully this year, we could make some good changes.
    Professor Teplin?

 STATEMENT OF LINDA TEPLIN, PH.D., PROFESSOR; DIRECTOR, PSYCHO-
             LEGAL PROGRAM, NORTHWESTERN UNIVERSITY

    Ms. Teplin. Thank you, Chairwoman, for inviting me to speak 
today.
    I very much appreciated your comments, Judge Huff, on the 
need for data, because my purpose here today is to share 
findings from the Northwestern Juvenile Project, a very large-
scale study of delinquent kids. We have been following them 
since 1995. And the findings of our study will provide the 
scientific basis for recommendations on how we can address 
problems in the juvenile justice system.
    On an average day, 14,000 girls are in detention. Many of 
these girls get into trouble because they have mental 
disorders. For example, they may have depression, they may 
self-medicate with drugs, they may then get into trouble with 
the law.
    We found in our study that three-quarters of girls in 
detention, a typical detention center in Cook County, in 
Chicago, had one or more psychiatric disorders. And their 
disorders are very different, their patterns are so different 
than boys, because girls have higher rates of depression, 
higher rates of anxiety disorders, higher rates of some 
substance abuse disorders, especially use of hard drugs such as 
cocaine and amphetamines. And when I am speaking of disorder 
with drugs, I am speaking of disorder, not just use--addiction.
    I also want to highlight that 55 percent of the girls that 
we interviewed had more than one disorder. We call that 
comorbidity in the field. And that is critical, because 
treating kids with comorbid disorders is so much more difficult 
than treating kids who only have one disorder.
    I also want to highlight that adverse life events are a 
fact of life for these girls. We found that 85 percent of our 
girls had one or more traumatic life event, such as having been 
attacked physically or beaten badly; 15 percent had full-blown 
post-traumatic stress disorder; nearly 30 percent of the girls 
had ever committed suicide; nearly one-third of girls reported 
sexual victimization with force.
    And the dire situation here is that very few of these kids 
receive services. We found that only about 40 percent of girls 
with major mental disorders, meaning major depressive episodes, 
manic episodes, psychosis, only about 40 percent received 
treatment in the detention center, and even fewer, 12 percent, 
received any treatment after they left detention.
    How do these kids fair when they leave detention? In a 
word, very poorly or not at all. We found in our study of 
nearly 2,000 kids that the likelihood of premature, violent 
death is extremely high. To date, as of today, of the 660 girls 
in our study, 22 of them died, all violently.
    So what can we do to address this dire, dire situation? Our 
research provides the scientific basis for some of my 
recommendations. Let's talk about each of these points.
    Before detention, we have to increase diversion, because so 
many of these kids with mental health problems don't need to be 
in detention. At intake, we need to screen systematically for 
disorders, improve the technology for screening, and make sure 
that every kid gets screened so that they can be referred for 
treatment.
    During detention, we need gender-specific services, 
because, as I mentioned, girls have different mental health 
needs than boys. Girls have greater comorbid disorders, a 
higher rate of comorbid disorders, more than one disorder, than 
boys.
    We need gender-specific treatment during detention. We also 
need gender-based treatments because we know that girls, as 
said by the other witnesses, they have worse family situations 
than boys. They are more likely to have been abused and 
exploited. These are all key risks for continuing psychiatric 
disorders. Now, recognizing this, the specific needs, Federal 
agencies have established programs designed for girls, and 
these must be continued and expanded.
    We also have to address release from detention and what 
happens then, because we need to make sure that treatments that 
begin in detention continue when those girls go back into the 
community. So, at the Federal level, OJJDP can use its 
authority to conduct research, to provide training and 
technical assistance to improve the circumstances of detained 
youth with mental disorders.
    Now, we need to make these investments. It will not be 
inexpensive. But without making these investments, this group--
which, by the way, is disproportionately poor, 
disproportionately minority--faces dire outcomes: school 
failure, long-term unemployment, reliance on public assistance 
during their life, continued trouble with the legal system, 
which also has its attendant costs, and premature, violent 
death.
    Making these investments also is necessary to promote 
community safety and to increase the likelihood that these 
young people, these young women will be successful in school, 
avoid recidivating, and contribute economically to the society.
    I want to add one vignette here. I mentioned this is a 
longitudinal study. We interviewed the kids initially when they 
were ages 10 to 17. The first follow-up interview was when they 
were ages 13 to 20. Many of these girls were interviewed in 
their homes. Almost invariably, these girls, ages 13 to 20, 
were pregnant, holding an infant, and had a couple of toddlers 
also running around. So we need to make these investments not 
just for this generation, but to prevent the cycle of disorder.
    Thank you so much.
    [The statement of Ms. Teplin follows:]

        Prepared Statement of Linda A. Teplin, Ph.D., Professor;
        Director, Psycho-Legal Program, Northwestern University

    My name is Linda A. Teplin. I am the Owen L. Coon Professor of 
Psychiatry and Behavioral Sciences at the Feinberg School of Medicine, 
Northwestern University. I am also Director of the Psycho-Legal Studies 
Program, a research group that studies people who ``fall between the 
cracks'' of the mental health system into the criminal justice net.
    Since 1983, my research group has studied detained populations--
adults and juveniles. We are currently conducting the Northwestern 
Juvenile Project, the first large-scale longitudinal study of mental 
health needs and outcomes of juvenile detainees. We are studying 1829 
youth (657 girls and 1172 boys) randomly sampled as they entered Cook 
County Juvenile Temporary Detention Center in Chicago, from 1995 to 
1998. We chose to study youth in Cook County because Chicago is a 
typical big city, with typical big-city problems. Since they were 
enrolled, we continue to track and re-interview our participants. To 
date, findings have been published in journals that are widely read and 
broadly distributed: Pediatrics, Archives of General Psychiatry, 
American Journal of Public Health, Journal of the American Academy of 
Child and Adolescent Psychiatry, Journal of Consulting and Clinical 
Psychology, and Psychiatric Services.\1-16\
    I am here to present key findings from the Northwestern Juvenile 
Project, all of which illustrate the dire mental health needs and poor 
outcomes of juvenile detainees overall, as well as the unique problems 
of girls. Based on our empirical findings, I will also recommend how 
the juvenile justice system can address their mental health needs.
    I am here to speak about some of the nation's most vulnerable and 
troubled youth. Without significant investments, this group faces 
serious risks of school failure, long-term unemployment and reliance on 
public assistance, continued trouble with the legal system, and 
premature death. Moreover, making such investments is necessary to 
promote community safety and to increase the likelihood that these 
young people will be successful in school, avoid recidivating, and 
contribute economically.
    How common are psychiatric disorders in girls and boys in 
detention? Our study shows that youth with psychiatric disorders pose a 
challenge for the juvenile justice system and, after their release, for 
the larger mental health system. At intake, nearly three-quarters of 
girls and two-thirds of boys have 1 or more psychiatric disorders, 
rates 3 to 4 times that of the general population younger than age 18. 
Girls have significantly higher odds than boys of having any 
disorder.\1\ Substance use disorders are the most common type of 
disorder, affecting about half of girls and boys (see Figure 1).
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    How are the mental health needs of girls different from those of 
boys? The mental health needs of girls are substantially different than 
those of boys. For example, girls have significantly higher odds than 
boys of having affective disorders (such as major depression), any 
anxiety disorder, and some substance use disorders (using ``hard 
drugs'' such as cocaine and amphetamines). Note that these prevalence 
rates refer to fully developed disorders, not merely symptoms of 
anxiety or use of substances.
    What proportion of detained youth has more than 1 disorder? Many 
juvenile detainees have more than 1 disorder, referred to as comorbid 
disorders. Significantly more girls (56.5%) than boys (45.9%) have 
comorbid disorders. Significantly more girls (22.5%) than boys (17.2%) 
also have 3 or more types of disorders. In addition, more than one-
fifth of girls have 2 or more substance use disorders--most often 
alcohol and marijuana use disorders. Among girls with an alcohol use 
disorder, 4 out of 5 also have 1 or more drug use disorder.\6\
    I highlight these facts because youth with comorbid disorders are 
far more difficult to treat and have much poorer outcomes than youth 
with only 1 disorder. In short, girls are not only more likely than 
boys to have psychiatric disorders but also more likely to have more 
complex and intractable problems.
    Adverse life events are a fact of life for delinquent girls. Nearly 
85% of girls report 1 or more traumatic life event, such as having been 
attacked physically or beaten badly; 15% meet criteria for post-
traumatic stress disorder (PTSD) in the past year.\10\ Significantly 
more girls (27.1%) than boys (9.8%) have ever attempted suicide. Nearly 
one-third of girls report sexual victimization with force, compared 
with less than 5% of boys.\10\ Such traumatic events in childhood are 
risk factors for poor psychological and social outcomes.
    Do youth who need services receive them? Despite their obvious need 
for mental health services, few receive them. Among youth with a major 
mental disorder, fewer than 40% of girls receive any evaluation or 
treatment in the detention center. Ironically, fewer girls are treated 
in the community (12.4%) than in the detention center. From the youth's 
point of view, there are substantial barriers to receiving services. 
For example, more than 40% of girls report they are unsure about how to 
access help.
    How do youth fare when they leave detention? Three years after 
detention, approximately 1 of every 5 youth have markedly impaired 
functioning, indicating a ''need for interventions that are more 
intensive than standard outpatient care would provide.'' \17\ These 
youth struggle to occupy age-appropriate social, occupational, and/or 
interpersonal roles. Among youth with marked global impairment, nearly 
two-thirds are severely impaired in 3 or more areas of functioning. For 
example, these youth may have been expelled from school, engaged in 
serious violations of the law, and had drug addictions. These findings 
underscore the ongoing costs to youth and society of the failure to 
provide effective rehabilitation services during detention and after 
release.
    Impairment at follow-up varies by sociodemographic characteristics. 
Consistent with patterns of mental health needs among detained youth 
and youth in the general population, females are more likely than males 
to be impaired in moods and emotion, self-harm, and substance use.
    One of our articles, published in Pediatrics, analyzed death rates 
of the 65 (3.8%) youth who died as of March 2004;4 95.5% of these youth 
died from homicide or legal intervention (e.g., killed by police). 
Among homicides, 93.0% were from gunshot wounds. Mortality among girls 
is nearly 8 times that of general population rates; in contrast, 
mortality among boys is about 4 times general population rates.\4\
    Since that article was published, 35 more youth have died. As of 
today, March 11, 2010, 100 of our original 1829 participants have died: 
22 girls and 78 boys.
    Implications for Juvenile Justice Policy: The US Department of 
Justice estimates that more than 14,000 girls are held in detention 
centers on an average day.\18\ Extrapolating from our findings, we 
estimate that as many as 10,000 girls in detention have 1 or more 
psychiatric disorders.
    By law, youth with serious mental disorders should receive mental 
health treatment while incarcerated.\19-21\ Federal courts have 
affirmed that detainees with serious mental disorders have a right to 
receive needed treatment as part of the state's obligation to provide 
needed medical care under the U.S. Constitution's Eighth Amendment 
(barring cruel and unusual punishment) and Fourteenth Amendment (right 
to substantive due process for youth in the juvenile justice system) 
(e.g., Estelle v Gamble, 1976;22 Ruiz v Estelle, 1980;23 Madrid v 
Gomez, 1995;24 Bowring v Godwin, 197725). Despite the legal mandate, 
recent reports issued by the Surgeon General\26\ and the President's 
New Freedom Commission on Mental Health \19,27\ suggest that juvenile 
detainees are a profoundly underserved population.
    Advocacy groups, researchers, and public policy experts are 
concerned that the juvenile justice system has become the only 
alternative for treatment for many poor and minority youth with 
psychiatric disorder. Reports from the Government Accountability Office 
and the U.S. House Committee on Government Reform demonstrate that a 
portion of those in juvenile detention are not facing any delinquency 
charges and remain in these settings only as they await community 
mental health services.\28,29\
    Most delinquent youth experience substantial barriers to services. 
Youth in the juvenile justice system are disproportionately minority, 
poor, poorly educated, and have few social networks--all 
characteristics known to limit the type and scope of mental health 
services that are provided.\30,31\ Girls who are pregnant or are 
already mothers face additional barriers due to childcare needs. The 
Surgeon General reports that, compared with non-Hispanic whites, racial 
and ethnic minorities have less access to mental health services, are 
less likely to receive needed care, and are more likely to receive 
poor-quality care.\32\ Moreover, poor minority youth rarely have 
private insurance.\33,34,35,36,37,38\ Many are ineligible for 
Medicaid.\34,36\
    Youth with comorbid disorders--common among detained youth--are 
particularly underserved. A recent report to Congress\39\ and the 
Surgeon General's Report\26\ on children's mental health highlighted 
the paucity of mental health services available to youth with 
comorbidity. Because the fragmented public mental health system has 
little to offer,\40\ youth with comorbidity may ``fall between the 
cracks'' into the juvenile justice net.
    Despite the fact that youth with mental and behavioral health needs 
are overrepresented in juvenile justice, these agencies never were 
intended to serve as the main point of access for mental health or 
substance abuse services. Moreover, they are hamstrung by shortages in 
administrative capacity, funding, and staffing and they also lack 
sufficient staff training. In many, if not most, cases, other child-
serving agencies are better suited to address a youth's mental and 
behavioral health needs.
    The President's New Freedom Commission on Mental Health\19\ and the 
Surgeon General\26\ stress the need to improve mental health treatment 
for youth in the juvenile justice system. Yet, without continued 
leadership from the Office of Juvenile Justice and Delinquency 
Prevention (OJJDP), services are not likely to improve. Based on our 
findings, we recommend that the juvenile justice system provide for the 
mental health needs of detained youth--and for the specific needs of 
girls--at each point in the juvenile justice system and hope that 
Congress will give strong consideration to these issues in the 
reauthorization of the Juvenile Justice and Delinquency Prevention Act.
1. Before detention:
    Increase diversion. Whenever possible, youth with major mental 
health problems should be diverted to treatment programs or facilities 
instead of being detained. Most detained youth are charged with 
nonviolent offenses\41\ and could be placed in community-based 
programs. Effective diversion services require a mental health 
evaluation following arrest or during judicial review. With 
collaboration from mental health professionals, juvenile courts can 
detect and refer many youth, avoiding unnecessary detention.
2. At intake:
    Improve screening for psychiatric disorders. The most recent 
national survey of juvenile justice facilities found that more than 70% 
provided screening for mental health problems,\42\ a substantial 
improvement over the 24% found in 1983.\43\ Although there are 
promising screening tools,\44,45\ additional studies are needed to 
document their validity. Moreover, we need to improve how we detect 
comorbid disorders, which are more common among girls than boys. 
Comorbid mental and substance use disorders are particularly difficult 
to detect because intoxication and withdrawal can mask or exacerbate 
psychiatric symptoms (and vice versa).\46,47,48\ Yet, failure to 
accurately diagnose complex conditions will lead to ineffective care 
and clinical deterioration.
    We must focus especially on detecting conditions common among 
girls, such as trauma and PTSD. The Surgeon General's report on 
children's mental health suggests that emergency medical providers must 
address the mental health needs of youth who have experienced 
trauma.\26\ Post-traumatic stress disorder is frequently overlooked 
even in the best psychiatric settings.\49,50\ Because PTSD frequently 
co-occurs with other psychiatric disorders,\51,52\ it can be difficult 
to detect without systematic screening.
3. During detention:
    Avoid retraumatizing youth. The conditions of confinement often 
exacerbate symptoms of mental disorder.\53\ Youth with significant 
mental and emotional disorders can be vulnerable to abuse and 
exploitation by others while incarcerated and are more prone to 
experience adverse consequences of confinement.\53\ This may help 
explain the disturbing information that came from a January 2010 
Department of Justice report on sexual victimization in juvenile 
facilities. They reported that an estimated 12% of youth in state 
juvenile facilities and large non-state facilities reported 
experiencing 1 or more incidents of sexual victimization by another 
youth or staff.\54\
    Detention centers must also reduce the likelihood that youth will 
be retraumatized during routine processing. For example, symptoms of 
PTSD may be exacerbated by such common practices as handcuffs and 
searches.\55,56\ In detention centers, psychiatric crises are often 
handled by isolating and restraining symptomatic detainees. These 
practices can trigger or escalate symptoms of PTSD (e.g., severe 
anxiety, aggression, numbing of emotions).\55,56\ Well-trained mental 
health professionals can help to develop strategies to manage 
emergencies more humanely, and ultimately more cost-effectively.
    Provide gender-specific services. There is a growing awareness that 
girls need services designed to address their special needs. Our study 
shows that girls have greater and different mental health problems than 
boys. In addition, compared with delinquent boys, girls have worse 
family situations\57-59\ and are more likely to have been abused or 
exploited.\60,61,62,63\ These are key risk factors for psychiatric 
disorders. Recognizing delinquent girls' special needs, federal 
agencies have established programs designed for them.\64,65-69\ These 
must be continued and expanded.
4. After release from detention:
    Ensure linkage to community treatment after release. Most juveniles 
do not remain in detention for long. The responsibility for their care 
typically falls to the public mental health system on their release. 
Treatment in detention will not be successful unless detainees are 
linked to services in the community. So-called ``linkage'' services are 
relatively inexpensive because they can often be managed by 
paraprofessionals, and the service has tremendous potential to 
interrupt the criminalization of mentally ill girls and boys. Simply 
ensuring that a first appointment is made and kept maximizes the chance 
of successful linkage to services.\70\
    Improve services for victims of trauma. Exposure to trauma is a 
serious public health problem among high-risk youth. Yet, services are 
insufficient.\71\ Timely interventions may avert subsequent and often 
chronic social problems common among traumatized youth.\72,52,73\ To 
the extent that PTSD is correlated with subsequent violent 
perpetration, effective treatment is also a matter of public 
safety.\74,75,76\ I greatly appreciate the intent of the OJJDP to focus 
more on this area of critical need.
    Two final notes: First, providing effective screening, evaluation, 
planning, diversion, and treatment for detained youth in need will not 
be easy. OJJDP could enhance state and local efforts by providing more 
extensive training and technical assistance to the many stakeholders. 
Second, we strongly encourage OJJDP to continue supporting research 
studies that provide the empirical basis for changes in juvenile 
justice policy.
Conclusion
    The Surgeon General reports that, despite their need for mental 
health treatment, insufficient services are available for delinquent 
youth in detention centers and after they return to their 
communities.\26\ To reduce delinquency, improve community safety, and, 
indeed, the nation's public health, we must redress this omission. For 
example, treating youth who have behavioral or substance use disorders 
may reduce their risk of victimization by curtailing the high-risk 
lifestyles associated with these disorders.\77\ Treating youth who have 
substance use or mood disorders may decrease suicidal risk.\78\ 
Improving mental health services can reduce recidivism.\79\ These 
investments will benefit individuals and communities and provide 
substantial returns on public expenditures.
    Girls have unique mental health needs. They arrive in detention 
particularly vulnerable, with histories of abuse and exploitation, 
school failure, multiple home transitions, and childcare needs. 
Although studies document the high rates of PTSD and depression among 
girls in detention, mental health screening and treatment are often 
unavailable or of poor quality; overcrowding worsens an already bad 
situation. Yet, because girls are underrepresented in the justice 
system, they often have no access to services that address their 
special needs.
    The challenge to the public health system is to provide accessible, 
innovative, and effective treatments to a population that is often 
beyond the reach of traditional services. The challenge to the federal 
government is to continue supporting efforts and innovation in more and 
meaningful ways at the state and local levels that provide the right 
incentives, guidance, and technical assistance. The challenge to us all 
is in protecting the needs and safety of our young people and our 
communities.
    Thank you for your time today. I greatly appreciate the opportunity 
to discuss and work with the Committee on these critically important 
issues.
                               references
    1. Teplin LA, Abram KM, McClelland GM, Dulcan MK, Mericle AA. 
Psychiatric disorders in youth in juvenile detention. Arch Gen 
Psychiatry. 2002;59:1133-1143.
    2. Teplin LA, Abram KM, McClelland GM, Washburn JJ, Pikus AK. 
Detecting mental disorder in juvenile detainees: who receives services. 
Am J Public Health. 2005;95:1773-1780.
    3. Teplin LA, Elkington KS, McClelland GM, Mericle AA, Washburn JJ. 
Major mental disorders, substance use disorders, comorbidity, and HIV-
AIDS risk behaviors in juvenile detainees. Psychiatr Serv. 2005;56:823-
828.
    4. Teplin LA, McClelland GM, Abram KM, Mileusnic D. Early violent 
death among delinquent youth: a prospective longitudinal study. 
Pediatrics. 2005;115:1586-1593.
    5. Teplin LA, Mericle AA, Abram KM, McClelland GM. HIV and AIDS 
risk behaviors in juvenile detainees: implications for public health 
policy. Am J Public Health. 2003;93:906-912.
    6. McClelland GM, Elkington KS, Teplin LA, Abram KM. Multiple 
substance use disorders in juvenile detainees. J Am Acad Child Adolesc 
Psychiatry. 2004;43:1215-1224.
    7. Washburn JJ, Romero EG, Welty LJ, et al. Development of 
antisocial personality disorder in detained youth: the predictive value 
of mental disorders. J Consult Clin Psychol. 2007;75:221-231.
    8. Abram KM, Choe JY, Washburn JJ, Teplin LA, King DC, Dulcan MK. 
Suicidal ideation and behaviors among youths in juvenile detention. J 
Am Acad Child Adolesc Psychiatry. 2008;47:291-300.
    9. Abram KM, Paskar LD, Washburn JJ, Teplin LA. Perceived barriers 
to mental health services among youths in detention. J Am Acad Child 
Adolesc Psychiatry. 2008;47:301-308.
    10. Abram KM, Teplin LA, Charles DR, Longworth SL, McClelland GM, 
Dulcan MK. Posttraumatic stress disorder and trauma in youth in 
juvenile detention. Arch Gen Psychiatry. 2004;661:403-410.
    11. Abram KM, Teplin LA, McClelland GM, Dulcan MK. Comorbid 
psychiatric disorders in youth in juvenile detention. Arch Gen 
Psychiatry. 2003;60:1097-1108.
    12. Abram KM, Washburn JJ, Teplin LA, Emanuel KM, Romero EG, 
McClelland GM. Posttraumatic stress disorder and psychiatric 
comorbidity among detained youths. Psychiatr Serv. 2007:1311-1316.
    13. Romero EG, Teplin LA, McClelland GM, Abram KM, Welty LJ, 
Washburn JJ. A longitudinal study of the prevalence, development, and 
persistence of HIV/sexually transmitted infection risk behaviors in 
delinquent youth: implications for health care in the community. 
Pediatrics. 2007;119:e1126-e1141.
    14. Elkington KS, Teplin LA, Mericle AA, Welty LJ, Romero EG, Abram 
KM. HIV/sexually transmitted infection risk behaviors in delinquent 
youth with psychiatric disorders: A longitudinal study. J Am Acad Child 
Adolesc Psychiatry. 2008;47:901-911.
    15. Swahn MH, Whitaker DJ, Pippen CB, et al. Concordance Between 
Self-Reported Maltreatment and Court Records of Abuse or Neglect Among 
High-Risk Youths. Am J Public Health. 2006;96:1849-1853.
    16. Washburn JJ, Teplin LA, Voss LS, Simon CD, Abram KM, McClelland 
GM. Psychiatric disorders among detained youths: a comparison of youths 
processed in juvenile court and adult criminal court. Psychiatr Serv. 
2008;59:965-973.
    17. Abram KM, Choe JY, Washburn JJ, Romero EG, Teplin LA. 
Functional impairment in youth three years after detention. J Adolesc 
Health. 2009;44:528-535.
    18. Sickmund M, Sladky TJ, Kang W. Census of Juveniles in 
Residential Placement Databook. Available at: http://
www.ojjdp.ncjrs.org/ojstatbb/cjrp/. Accessed February 16, 2009.
    19. The President's New Freedom Commission on Mental Health. 
Subcommittee on Criminal Justice: Background Paper. Available at: 
http://www.mentalhealthcommission.gov/reports/FinalReport/downloads/
FinalReport.pdf. Accessed January 9, 2005.
    20. American Association of Correctional Psychology. Standards for 
psychology services in jails, prisons, correctional facilities, and 
agencies. Crim Justice Behav. 2000;27:433-494.
    21. Soler M. Health issues for adolescents in the justice system. J 
Adolesc Health. 2002;31:321-333.
    22. Estelle v Gamble, 429 US 97 (1976); 1976.
    23. Ruiz v. Estelle, 503 F. Supp. 1265 (SD Tex. 1980); 1980.
    24. Madrid v Gomez. 889 F. Supp. 1146, 9617277v2. US 9th Circuit 
Court of Appeals (ND CA 1995); 1995.
    25. Bowring v. Godwin, 551 F.2d 44, 47 (4th Circuit 1977); 1977.
    26. US Department of Health and Human Services. Report of the 
Surgeon General's Conference on Children's Mental Health: A National 
Action Agenda. Washington, DC: US Government Printing Office; 2000.
    27. Hogan MF. New Freedom Commission Report: The President's New 
Freedom Commission: Recommendations to Transform Mental Health Care in 
America. Psychiatr Serv. 2003;54:1467-1474.
    28. Government Accountability Office. Child Welfare and Juvenile 
Justice: Federal Agencies Could Play a Stronger Role in Helping States 
Reduce the Number of Children Placed Solely to Obtain Mental Health 
Services. Available at: http://www.gao.gov/new.items/d03397.pdf. 
Accessed March 9, 2010, 2010.
    29. United States Congress. Incarceration of Youth Who are Waiting 
for Community Mental Health Services in the United States. Available 
at: http://hsgac.senate.gov/public/
index.cfm?FuseAction=Files.View&FileStore--id=bdb90292-b3d5-47d4-9ffc-
52dcd6e480da.
    30. McKay MM, McCadam K, Gonzales JJ. Addressing the barriers to 
mental health services for inner city children and their caretakers. 
Community Ment Health J. 1996;32:353-361.
    31. Kataoka SH, Zhang L, Wells KB. Unmet need for mental health 
care among U.S. children: variation by ethnicity and insurance status. 
Am J Psychiatry. 2002;159:1548-1555.
    32. US Department of Health and Human Services. Mental Health: 
Culture, Race, and Ethnicity--A Supplement to Mental Health: A Report 
of the Surgeon General. Washington, DC: US Government Printing Office; 
2001.
    33. Moffitt RA, Slade EP. Health care coverage for children who are 
on and off welfare. The Future of Children. 1997;7:87-98.
    34. Newacheck PW, Hughes DC, Cisternas M. Children and health 
insurance: an overview of recent trends. Health Aff (Millwood). 
1995;Spring:245-254.
    35. Fronstin P. Children without health insurance: an analysis of 
the increase of uninsured children between 1992 and 1993. Inquiry. 
1995;32:353-359.
    36. Lieu TA, Newacheck PW, McManus MA. Race, ethnicity, and access 
to ambulatory care among US adolescents. Am J Public Health. 
1993;83:960-965.
    37. Holl JL, Szilagyi PG, Rodewald LE, Byrd RS, Weitzman ML. 
Profile of uninsured children in the United States. Arch Pediatr 
Adolesc Med. 1995;149:398-406.
    38. Flores G, Fuentes-Afflick E, Barbot O, et al. The health of 
Latino children: Urgent priorities, unanswered questions, and a 
research agenda. JAMA. 2002;288:82-90.
    39. Substance Abuse and Mental Health Services Administration. 
Report to Congress on the Prevention and Treatment of Co-occurring 
Substance Abuse Disorders and Mental Disorders. Rockville, MD: US 
Department of Health and Human Services; 2002.
    40. Cohen R, Parmelee DX, Irwin L, et al. Characteristics of 
children and adolescents in a psychiatric hospital and a corrections 
facility. J Am Acad Child Adolesc Psychiatry. 1990;29:909-913.
    41. Sickmund M, Wan Y. Census of Juveniles in Residential Placement 
Databook. Washington,DC: Office of Juvenile Justice and Delinquency 
Prevention; 2001 2001.
    42. Goldstrom I, Jaiquan F, Henderson M, Male A, Manderscheid RW. 
The availability of mental health services to young people in juvenile 
justice facilities: a national study. In: Manderscheid RW, Henderson 
MJ, eds. Mental Health, United States, 2000. Rockville: USDHHS, Center 
for Mental Health Services; 2001:248-268.
    43. Anno BJ. The availability of health services for juvenile 
offenders: Preliminary results of a national survey. Journal of Prison 
& Jail Health. 1984;4:76-90.
    44. Wasserman GA, Jensen PS, Ko SJ, et al. Mental health 
assessments in juvenile justice: report on the Consensus Conference. J 
Am Acad Child Adolesc Psychiatry. 2003;42:751-761.
    45. Grisso T. Juvenile offenders and mental illness. Psychiatry, 
Psychology and Law. 1999;6:143-151.
    46. King CA, Ghaziuddin N, McGovern L, Brand E, Hill E, Naylor M. 
Predictors of comorbid alcohol and substance abuse in depressed 
adolescents. J Am Acad Child Adolesc Psychiatry. 1996;35:743-751.
    47. Stowell RJA, Estroff TW. Psychiatric disorders in substance-
abusing adolescent inpatients: a pilot study. J Am Acad Child Adolesc 
Psychiatry. 1992;31:1036-1040.
    48. Greenbaum PE, Foster-Johnson L, Petrila A. Co-occurring 
addictive and mental disorders among adolescents: prevalence research 
and future directions. Am J Orthopsychiatry. 1996;66:52-60.
    49. Cascardi M, Mueser KT, DeGiralomo J, Murrin M. Physical 
aggression against psychiatric inpatients by family members and 
partners. Psychiatr Serv. 1996;47:531-533.
    50. Mueser KT, Goodman LB, Trumbetta SL, et al. Trauma and 
posttraumatic stress disorder in severe mental illness. J Consult Clin 
Psychol. 1998;66:493-499.
    51. Kessler RC, Sonnega A, Bromet J, Hughes M, Nelson CB. 
Posttraumatic stress disorder in the National Comorbidity Survey. Arch 
Gen Psychiatry. 1995;52:1048-1060.
    52. Giaconia RM, Reinherz HZ, Silverman AB, Pakiz B, Frost AK, 
Cohen E. Traumas and posttraumatic stress disorder in a community 
population of older adolescents. J Am Acad Child Adolesc Psychiatry. 
1995;34:1369-1380.
    53. Coalition for Juvenile Justice. Handle with Care: Serving the 
Mental Health Needs of Young Offenders. Washington, DC; 2001.
    54. Bureau of Justice Statistics. Sexual Victimization in Juvenile 
Facilities Reported by Youth, 2008-09. Available at: http://
bjs.ojp.usdoj.gov/content/pub/pdf/svjfry09.pdf.
    55. Prescott L. Improving policy and practice for adolescent girls 
with co-occurring disorders in the juvenile justice system. Delmar, NY: 
The GAINS Center; 1998 1998.
    56. Veysey BM. Specific needs of women diagnosed with mental 
illnesses in U.S. jails. In: Levin BL, Blanch AK, Jennings A, eds. 
Women's mental health services: A public health perspective. Thousand 
Oaks, CA: Sage Publications, Inc; 1998:368-389.
    57. Chesney-Lind M, Shelden RG. Girls, Delinquency, and Juvenile 
Justice. Pacific Grove, CA: Brooks/Cole; 1992.
    58. Henggeler SW, Edwards J, Borduin CM. The family relations of 
female juvenile delinquents. J Abnorm Child Psychol. 1987;15:199-209.
    59. Silverthorn P, Frick PJ. Developmental pathways to antisocial 
behavior: the delayed-onset pathway in girls. Dev Psychopathol. 
1999;11:101-112.
    60. Lewis DO, Yeager CA, Cobham-Portorreal CS, Klein N, et al. A 
follow-up of female delinquents: maternal contributions to the 
perpetuation of deviance. J Am Acad Child Adolesc Psychiatry. 
1991;30:197-201.
    61. Chamberlain P, Reid JB. Differences in risk factors and 
adjustment for male and female delinquents in Treatment Foster Care. J 
Child Fam Stud. 1994;3:23-36.
    62. Dembo R, Williams L, Schmeidler J. Gender differences in mental 
health service needs among youths entering a juvenile detention center. 
J Prison Jail Health. 1993;12:73-101.
    63. Viale-Val G, Sylvester C. Female delinquency. In: Sugar M, ed. 
Female adolescent development (2nd ed ). Philadelphia, PA: Brunner/
Mazel, Inc; 1993:169-191.
    64. Ravoira L. National Girls' Caucus. Juvenile Justice Journal. 
1999;6:21-28.
    65. Daniel MD. The Female Intervention Team. Juvenile Justice 
Journal. 1999;6:14-20.
    66. Acoca L. Investing in Girls: A 21st Century Strategy. Juvenile 
Justice Journal. 1999;6:3-13.
    67. Budnick KJ, Shields-Fletcher E. What About Girls? Washington: 
Office of Juvenile Justice and Delinquency Prevention; 1998 1998. FS 
9884.
    68. Greene Peters and Associates. Guiding principles for promising 
female programming: An inventory of best practices. Available at: 
http://www.ojjdp.ncjrs.org/pubs/principles/contents.html. Accessed 
March, 22, 2005.
    69. Community Research Associates. Juvenile Female Offenders: A 
Status of the States Report. Available at: http://ojjdp.ncjrs.org/pubs/
gender/contents.html. Accessed March, 22, 2005.
    70. Koroloff NM, Elliott DJ, Koren PE, Friesen BJ. Linking low-
income families to children's mental health services: an outcome study. 
J Emot Behav Disord. 1996;4:2-11.
    71. Costello EJ, Erkanli A, Fairbank JA, Angold A. The prevalence 
of potentially traumatic events in childhood and adolescence. J Trauma 
Stress. 2002;15:99-112.
    72. Davidson JRT, Hughes D, Blazer DG, George LK. Post-traumatic 
stress disorder in the community: an epidemiological study. Psychol 
Med. 1991;21:713-721.
    73. Bell CC, Jenkins EJ. Traumatic stress and children. J Health 
Care Poor Underserved. 1991;2:175-185.
    74. Cauffman E, Feldman S, Waterman J, Steiner H. Posttraumatic 
stress disorder among female juvenile offenders. J Am Acad Child 
Adolesc Psychiatry. 1998;37:1209-1216.
    75. Fehon DC, Grilo CM, Lipschitz DS. Correlates of community 
violence exposure in hospitalized adolescents. Compr Psychiatry. 
2001;42:283-290.
    76. Wekerle C, Wolfe DA, Hawkins DL, Pittman AL, Glickman A, Lovald 
BE. Childhood maltreatment, posttraumatic stress symptomatology, and 
adolescent dating violence: considering the value of adolescent 
perceptions of abuse and a trauma mediational model. Dev Psychopathol. 
2001;13:847-871.
    77. Loeber R, Burke J, Mutchka J, Lahey BB. Gun Carrying and 
Conduct Disorder: A Highly Combustible Combination? Arch Pediatr 
Adolesc Med. 2004;158:138-145.
    78. Shaffer D, Gould MS, Fisher P, et al. Psychiatric diagnosis in 
child and adolescent suicide. Arch Gen Psychiatry. 1996;53:339-348.
    79. Foster EM, Qaseem A, Connor T. Can better mental health 
services reduce the risk of juvenile justice system involvement? Am J 
Public Health. 2004;94:859-865.
                                 ______
                                 
    Chairwoman McCarthy. Thank you.
    Mr. Ivory?

   STATEMENT OF GARY IVORY, SOUTHWEST PRESIDENT AND NATIONAL 
    DIRECTOR OF PROGRAM DEVELOPMENT, YOUTH ADVOCATE PROGRAMS

    Mr. Ivory. Good morning, Chairwoman McCarthy, Ranking 
Member Platts, and members of the Subcommittee on Healthy 
Families and Communities. Thank you for inviting me to testify 
today.
    I am the national director of program development for Youth 
Advocate Programs, Inc., which is a nonprofit organization 
founded in 1975 by Tom Jeffers.
    YAP began by helping to return youthful felony offenders 
from a place called Camp Hill Prison near Harrisburg, 
Pennsylvania, back to their communities and homes of origin. 
The program provided then and it provides now intensive 
supervision, 24/7 support, up to 30 hours per week face-to-face 
contact for each youth who is referred to our program. For 
those youth who have received services, approximately 78 
percent did not recidivate and experienced positive gains in 
education and employment.
    The core of the model is very simple: Hiring paid advocates 
from communities, from the neighborhoods where kids live, to be 
positive adult role models. Advocates are familiar with 
neighborhood conditions, they speak the language of the young 
people, and they are familiar with the culture and the 
background of the young people that we serve.
    The mission of Youth Advocate Programs--or I will refer to 
it as ``YAP'' for short--is to develop community-based 
alternatives to incarceration or institutionalization, whether 
that is jails, detention centers, psychiatric treatment 
centers, group homes, et cetera. YAP provides a safe, cost-
effective alternative for many jurisdictions nationally. 
Nationally, we serve 10,000 youth and families on any given day 
and also operate about 120 individual programs.
    Today briefly I will describe what we are doing in our 
Clark County, Las Vegas, Nevada, program. This program is 
serving a large number of female offenders who have been 
adjudicated delinquent. YAP is under contract with the 
Department of Juvenile Justice Services and the juvenile court 
to keep these young women from re-offending.
    YAP started the program in Las Vegas almost 5 years ago. We 
were charged with helping to reduce the number of female 
offenders that were housed at the Clark County Department of 
Juvenile Justice Services detention facilities and to develop 
alternatives to out-of-home placement. YAP helped to 
demonstrate that delinquent youth can improve their educational 
and vocational outcomes in the community without jeopardizing 
public safety.
    Since 2006, each of these goals have been accomplished. To 
date, we have achieved an 80 percent or higher success rate, 
and we are also helping to reduce recidivism rates, preventing 
out-of-home removal whenever possible, and in helping young 
women to successfully complete the terms and conditions of 
their probation.
    We find the following characteristics or at least the 
following components or elements of programs are very important 
in working with female offenders: an individualized approach to 
working with females based on their needs, including recruiting 
female staff who have sometimes been through the juvenile 
justice system as role models. We have found that a family-
centered approach rather than just focusing on the needs of the 
young women is important; that unconditional caring and support 
and a never-give-up attitude, that a holistic approach, a 
wraparound approach that addresses multiple life domain areas 
and that they are addressed simultaneously is important; that 
24/7 availability in the community; that a wraparound approach 
where services are across different systems, because many of 
the young women are involved in multiple systems, as some of 
the other presenters have mentioned; that a form of what we 
call supported work or subsidized employment is important, 
especially when it is an area of their interest; flexible funds 
used to address emergency needs such as clothing, housing, fees 
for programs, et cetera; and a never-give-up approach.
    A key ingredient of our success in Las Vegas has been our 
supported work program. The model is a form of subsidized 
employment where we pay the wages of young women to work at 
places of employment within their community. And YAP actually 
pays their salaries while they are working from 10 to 20 hours 
per week.
    In January this past year, I was visiting our program and 
met a young woman who worked in our supported work program. She 
had been arrested and put on probation due to prostitution. She 
had been gang-raped. She had a young daughter. And, as a 
result, after she had been in our program for a while, we 
connected her with our supported work program. I visited her 
while she was working and asked her what made a difference in 
her life, and she had mentioned having another woman who had a 
similar experience, the fact that she was able to get a job in 
an area of her interest, and the fact that she had someone who 
was there to listen to her and support her was vital to her 
overcoming these obstacles in her life.
    Lastly, I would like to mention the cost savings of this 
model and similar models and the outcomes associated with those 
cost-benefits.
    On a national basis, programs like YAP cost about $60 per 
day, sometimes a little bit less and sometimes a little bit 
more. The cost of secure detention ranges from $150 per day, as 
the judge mentioned, and oftentimes much higher. The cost 
savings for YAP and similar programs to secure detention, 
correctional and residential placement are substantial.
    In addition, the outcomes are far better. For example, the 
recidivism rate for youth returning from correctional placement 
is often 50 percent or higher. YAP has demonstrated through 10 
external evaluations that the outcomes are 80 percent or higher 
working with adjudicated delinquent young people.
    I hope my testimony today has shed some light on the YAP 
model as well as on other similar models and challenges faced 
in working with female offenders. Thank you again for inviting 
me to participate.
    [The statement of Mr. Ivory follows:]

          Prepared Statement of Gary Ivory, National Director,
           Program Development, Youth Advocate Programs, Inc.

    Chairwoman McCarthy, Ranking Member Platts and Members of the 
Subcommittee on Healthy Families and Communities, thank you for 
inviting me to testify today. My name is Gary Ivory. I am the National 
Director of Program Development for Youth Advocate Programs, Inc. 
(YAP). YAP is a national non-profit organization founded in 1975 by Tom 
Jeffers. YAP began by helping to return felony youthful offenders in 
Camp Hill Prison (near Harrisburg PA) back to their homes and 
communities of origin. The program provided intensive supervision and 
24/7 support, up to 30 hours per week, for each youth and his/her 
family. For those youth that received services, approximately 78% did 
not recidivate and experienced positive gains in education and 
employment. The core of the model then, and now, is the recruitment of 
paid ``advocates'' as positive adult role models. Advocates are 
recruited from the neighborhoods in which the youth whom they serve 
reside. Advocates are familiar with neighborhood conditions and 
resources. Advocates also are able to relate to the culture and 
language of the youth and family that they serve.
    The mission of YAP is to develop home and community-based 
alternatives for youth and adults who are at high-risk of being 
institutionalized (jails, detention centers, group homes, psychiatric 
hospitals, etc.). YAP provides a safe, cost-effective alternative for 
many jurisdictions nationally. Currently, YAP operates over 120 
programs in seventeen states, including Washington, DC. YAP serves over 
10, 000 youth and families annually. We have over 2, 300 full and part 
time staff.
    Today, I will present on some of the great work that YAP is doing 
in Clark County (Las Vegas) Nevada. This program is serving a large 
number of female offenders who have been adjudicated delinquent. YAP is 
under contract with the Department of Juvenile Justice Services and the 
Juvenile Court to keep from re-offending.
    YAP started the program in Las Vegas almost five years ago. YAP was 
charged with helping to reduce the number of female offenders that were 
housed at the Clark County Department of Juvenile Justice Services 
detention facilities and to develop alternatives to out-of-home 
placement. YAP helped to demonstrate that delinquent youth can improve 
their educational and vocational circumstances in the community without 
jeopardizing public safety. Since 2006, each of these goals has been 
accomplished. To date, the program has achieved an 80% or higher 
success rate. We define success by measuring the following: reducing 
youth recidivism rates; preventing out-of-home removal and helping 
youth successfully complete the terms and conditions of their 
probation.
    Over many years, we have observed some specialized needs of female 
offenders that are very different from their male counterparts:
    <bullet> Most have been sexually abused at some point in their 
lives
    <bullet> Their needs and support systems are very different and 
often go unmet in programs that are geared towards working with males
    <bullet> Many programs are geared to working with males, not 
females (staffing patterns often reflect this)
    <bullet> Females who are involved in ``sexual trafficking'' often 
have significant safety issues and fear of reprisal/safety is paramount
    <bullet> Placements out of the home (detention, correctional 
placements, foster care) tend to be less tailored to meet their needs 
and they are often abused in these settings
    Some key program components of YAP that we find work well with 
female offenders include the following:
    <bullet> Individualized approach to working with females based on 
their needs, including recruiting female staff who have sometimes been 
through the juvenile justice system as role models
    <bullet> Family-centered approach, rather than just focusing on the 
needs of the youth
    <bullet> Unconditional caring/support; a never give up attitude
    <bullet> Holistic approach: multiple needs are addressed 
simultaneously
    <bullet> 24/7 availability
    <bullet> Wraparound approach where services and supports are 
literally wrapped around the youth and her family
    <bullet> Supported Work (subsidized employment) in an area of 
interest
    <bullet> Flexible funds to address emergency needs (clothing, 
housing, fees for programs
    <bullet> Never give up approach!
    A key ingredient to our success in Las Vegas has been our Supported 
Work Program. Supported work is a form of subsidized employment. Based 
on a youth's interest, YAP finds a local employer who will employ the 
youth 10-20 hours per week. The employer agrees to provide a safe work 
environment for the youth and provide direction and support. The youth 
is paid at minimum wage, although some employers add to their salary to 
increase their hourly wage. Employers often hire youth once their 3-4 
month Supported Work Program ends. In Las Vegas, we currently have 15 
youth working through our Supported Work Program. In addition to 
helping with a legal source of income, it helps young women with a 
career track, marketable job skills and as an alternative to the 
underground economy, especially gangs and prostitution. This also helps 
them to pay fees and restitution that might be owed to the Court.
    In January of this year, I was in Las Vegas visiting our program. 
One of the young women in our Supported Work Program was referred to 
YAP because of teenage prostitution. She had been gang raped. After 
assigning her an advocate to work with her, we helped her with a job 
through our Supported Work Program. I visited her while she was working 
at a job site. She has a young child and the job is helping her pay the 
bills and help in developing a career track. She is now working in a 
restaurant and is finishing her high school diploma and will be 
attending community college. YAP will be assisting her with a $1, 000 
scholarship through our YAP Endowment Fund. She is doing very well 
because of the unconditional support and care that we have provided 
her. She has had no contact with the juvenile justice system for over a 
year.
    Lastly, I would like to mention the cost savings of YAP and our 
outcomes. The cost of operating YAP averages $60 per day nationally. 
The cost of secure detention ranges from $150 per day, or often much 
higher. The cost savings for a YAP program versus secure detention, 
correctional and residential placement are substantial. In addition, 
YAP outcomes are far better. For example: the recidivism rates for 
youth returning from correctional placements is often 50% or higher. 
YAP has over ten (10) external evaluations on our programs. Those 
outcome studies demonstrate YAP's impact on the youth we serve. Again, 
our outcomes indicate that 80% of youth are positively discharged from 
our programs and YAP also has shown positive outcomes working with 
female offenders.
    I hope my testimony has shed some light on the YAP model and some 
challenges faced working with female offenders. Thank you again for 
inviting me to participate in the hearing today, I am happy to answer 
any questions that you may have.
                                 ______
                                 
    Chairwoman McCarthy. Thank you.
    Officer Romer?

         STATEMENT OF CAMERON ROMER, PROBATION OFFICER

    Ms. Romer. Good morning, Chairwoman McCarthy and committee 
members. I would like to thank you for having me testify today.
    I am employed as a York County juvenile probation officer 
in Pennsylvania. Through my experience, I have been afforded 
the opportunity to supervise female juvenile offender 
populations that are court-ordered to residential treatment 
facilities.
    York County currently has eight females in out-of-home 
placements that are considered long-term placements. There are 
currently 125 juvenile male juvenile offenders in placement. 
All of our female juvenile offenders have been placed as a 
result of an adjudication of delinquency, ranging from 
misdemeanor offenses to felony offenses.
    The primary concerns of each of the female clients are 
typically the mental health issues and substance abuse issues 
that emerge as a result of post-traumatic stress disorder. Each 
client that I currently have in placement that is a female has 
been assigned the diagnosis of post-traumatic stress disorder, 
as well as other diagnoses.
    My experience finds that each female has a history of 
sexual abuse and/or is a victim of physical abuse. They have 
never been afforded treatment as a result of that abuse, which 
has resulted in the juvenile being placed in the delinquency 
system. The offender has not learned healthier, positive coping 
skills to deal with the trauma. The female has then resorted to 
using substances and has difficulty controlling her behaviors 
in a community setting. Additionally, family issues emerge as a 
result of the female's acting out in a negative way.
    A major obstacle to effectively treating the female 
offenders in York County is the lack of services that are 
offered. The residential facilities that offer quality 
treatment are not as prevalent for females as they are for 
males. For example, there is not one facility in the State of 
Pennsylvania that is designed specifically to treat a female 
adolescent that has been found to have committed a sexual 
offense.
    To date, York County has two or three providers that have 
proven to be somewhat effective in treating the post-traumatic 
stress disorder and substance abuse issues in adolescent 
females. Programs do offer rigorous treatment components for 
the above-mentioned issues; however, it is a slow healing 
process for any child that is dealing with trauma. This results 
in a length of stay being anywhere from 6 months to over a 
year.
    My program has been implemented throughout York County as 
an intensive program that offers a family worker and a case 
worker for each one of my children that go into placement. The 
idea is that the services begin at disposition and the family 
work begins at disposition throughout the treatment process for 
this child, and there is more support put in place for both the 
offender as well as the family.
    Additionally, juvenile female offenders who are in 
placement usually have significant mental health issues. These 
need to be stabilized prior to even addressing the substance 
abuse issues, the family relationship problems, and the history 
of abuse.
    It has been my experience that female clients entering 
residential placements also struggle in the educational 
setting. They typically are behind in their education. This is 
largely attributed to truancy issues; however, juvenile 
probation in York does not place a female offender due to 
truancy. It has also been determined that female offenders have 
not been able to focus in the educational setting as a result 
of mental health disorders and symptoms of post-traumatic 
stress disorder. The school districts often overlook this and 
do not want to deal with these children.
    The transition for any female from placement back into the 
community has become a significant factor in preventing 
recidivism. The focus needs to be that the aftercare for a 
child begins at disposition and that all parties need to be 
involved in the treatment and planning of each child throughout 
placement. This includes the juvenile probation department, the 
residential facility, the family, the school districts, and any 
other agency involved with the child. It needs to become a team 
approach in order to allow for a smooth transition back into 
the juvenile community.
    The emphasis has been on the continuity of care rather than 
discharging a female offender without any services already in 
place. This includes a solid educational plan, counseling 
services, medication management, designated support system, and 
employment opportunities for the child prior to release from 
placement. It is significant also to monitor the female 
offender on a regular basis in order to ensure compliance with 
probation conditions, as well as to determine that the female 
is not displaying any signs of returning to negative behaviors. 
That way, they can be caught before it is too late or before 
the child runs away.
    It is in my opinion that prior to discharging the female 
from placement family counseling should be facilitated. This 
will address the issues that resulted in the child being 
removed from the home and will also provide the primary 
caretaker the opportunity to learn the different and more 
effective ways of managing the child's issues. The child will 
also be able to see the effect that her behavior has had on a 
family as a result of the counseling session. It is helpful to 
have a relapse prevention plan in place as well as a defined 
set of rules for each of these children.
    I would offer that intensive programs can be implemented on 
a county level. Numbers are on the rise for female youth who 
are being adjudicated delinquent. However, it is hopeful to see 
that there is more work being done on gender-specific issues.
    Once again, thank you for allowing me to testify today.
    [The statement of Ms. Romer follows:]

        Prepared Statement of Cameron Romer, Probation Officer,
                            York County, PA

    My duties as a York County Juvenile Probation Officer have afforded 
me the opportunity to supervise the female juvenile offender population 
that are Court ordered to a residential facility. York County currently 
has eight females in out of home placements that are considered long 
term placements. There are 125 male juvenile offenders in placement. 
All female juvenile offenders have been placed as a result of an 
adjudication of delinquency ranging from Misdemeanor Offenses to Felony 
Offenses. The primary concerns for each female client are the mental 
health issues and substance abuse issues. Each of the 8 females 
currently in placement have been diagnosed with Post Traumatic Stress 
Disorder. My experience finds that each female has a history of sexual 
abuse (victim) and has never been offered treatment as a result of that 
abuse. The juvenile offender have not learned healthy or positive 
coping skills to deal with the trauma. As a result, the female has 
resorted to substance abuse and has severe difficulty controlling her 
behaviors. Additionally, family issues emerge as a result of the female 
acting out in a negative manner.
    A major obstacle to effectively treating female offenders in York 
County is the lack of services for females. The residential facilities 
that offer quality treatment are not as prevalent as they are for 
males. For example, there is no facility in Pennsylvania designed to 
treat a female adolescent that has been found to committed a sexual 
offense. To date, York County has two to three providers that have 
proven to be effective in treating PTSD and substance abuse issues in 
adolescent females. The programs offer rigorous treatment for the 
above-mentioned issues; however, it is a slow healing process for any 
child dealing with trauma. This results in a length of stay being 
anywhere from 6 months to over a year. Additionally, female juvenile 
offenders who are in placement usually have significant mental health 
issues that need to be stabilized prior to addressing the substance 
abuse issues and family relationship problems. It has been my 
experience that female clients entering residential placements also 
struggle to succeed in an educational setting. Females are typically 
behind in their education. This is largely attributed to truancy 
issues. It has also been determined that the female offenders have not 
been able to focus in an educational setting as a result of mental 
health disorders and symptoms of PTSD. This often is overlooked by 
school districts.
    The transition for any female from placement back in to the 
community is a significant factor in preventing recidivism. The focus 
needs to be that aftercare begins at disposition and all parties need 
to be involved in the treatment planning of each child. This includes 
Juvenile Probation, Residential Facility, Family, School Districts, and 
any other agency involved. It needs to be a ``team approach'' in order 
to allow for a smooth transition back in to the community. The emphasis 
has been on continuity of care rather than discharging a female 
offender without any services already in place. This includes a solid 
educational plan, counseling services, medication management, 
designated support system, and employment opportunity. It is 
significant to monitor the female offender on a regular basis in order 
to ensure compliance with probation conditions as well as to determine 
that the female is not displaying any signs of returning to negative 
behaviors.
    It is my opinion that prior to discharging a female from 
residential placement, it is imperative that family counseling is 
facilitated. This will address the issues that resulted in the child 
being removed from the home and will also provide the primary caretaker 
the opportunity to learn different and/or more effective ways of 
managing the child's issues. The child will also be able to see the 
effect that her behavior has had on the family as a result of the 
counseling sessions. It is also helpful to have a relapse prevention 
plan in place as well a defined set of rules for each child.
                                 ______
                                 
    Chairwoman McCarthy. Thank you very much.
    Thank you, everyone, for the testimony.
    We have your full testimony, you know, which goes into the 
record. As you heard the bells, we actually have six votes, 
which means it would be over an hour being out on the House 
Floor.
    I am going to ask my colleague, Mr. Murphy, if he would 
like to ask a question.
    Mr. Murphy. Thank you very much, Madam Chair. And thank you 
for allowing me to sit on this panel. This is an issue I care 
very, very deeply about.
    And I will ask my one question on the valid court order 
exception. Really pleased to hear strong testimony for the 
removal of that exception in the reauthorization of the act. We 
did it in Connecticut, and despite a lot of protests from 
prosecutors and judges that it was going to result in 
catastrophe and, you know, dangerous kids wandering the street, 
that did not happen. And it put pressure on Connecticut to very 
quickly ramp really up our community-based placement models.
    So I might just ask that question--I will direct it to 
Professor Sherman and Judge Huff--as to what your experiences 
have been in States that have removed the valid court order 
exception and the kind of things that judges need in order to 
find alternatives.
    Ms. Sherman. Yes, thank you for the question. I am actually 
from Massachusetts, and we are another State that does not have 
the valid court order exception as a matter of State law.
    I think what has happened, and Judge Huff testified to it, 
is that judges and--it has basically caused child and family 
services agencies to step up and provide alternative placements 
and services in the community and not criminalize this 
behavior.
    And it has also caused the system to look behind the 
behavior. Very often, in my experience, girls who run away are 
running away from something; there is another situation. There 
are family issues. There is sexual victimization. And it has 
really caused people not to default for an easy option, which 
is to put the girl into detention, and really look at the 
family situation and provide services directed at that.
    Judge Huff. Thank you for the question.
    I think there is a mistake that judges need something. 
Oftentimes, the best thing a judge can do is to stay out of it. 
Because we get involved, we--I will speak for myself--I believe 
that I am all powerful, and I believe that I can solve the 
family's problems. And when they don't do exactly what I want 
them to do, I get mad and I put them in jail.
    What the court needs are people who handle these intakes 
who recognize that, when judges actually do get the cases, the 
most beneficial thing that these families and these children 
can receive is some sort of counseling.
    What we do in Birmingham, before we ever take an 
ungovernable complaint, we require that these families attend 
counseling, and we give them recommendations of counselors who 
may see them on a sliding scale. That keeps me from getting 
involved and being hot-headed and putting these people in jail.
    The communities can stand to have programs such as YAP, 
like Mr. Ivory spoke about, like the Strong Girls program that 
we have in Birmingham, that works with the child and works with 
the family from a holistic approach that involves not only 
counseling but also involves activities in the arts, some self-
discovery. But those are programs that I think are best used 
outside of the court system.
    I tell people oftentimes that the court system is a 
horrible service delivery system, and it really is, especially 
when it comes to youth. We deal with teenagers, and we all 
know--I know how a teenager can be. I was a teenager once, and 
I didn't do everything that my parents wanted me to do. I could 
become, you know, a little unruly at times. I stayed out when I 
wasn't supposed to be out. I probably did some things I 
shouldn't have done.
    And I wasn't being sexually abused at home. I didn't have a 
parent or both parents who were addicted to alcohol or some 
other substance. I didn't have a father who was incarcerated, 
or living in a foster home.
    What we have to do is recognize that kids are kids and that 
adolescent brain development shows that the adolescent brain 
doesn't complete its development until about age 25. And when 
you pour the other issues that--what I call ``our kids'' on top 
of it, that that makes matters worse.
    That is a roundabout way of saying sometimes, Congressman, 
the best thing that judges can do is recognize they need to 
stay out.
    Mr. Murphy. Thank you.
    Chairwoman McCarthy. Thank you.
    As I said, we are in a vote. It is a little frustrating to 
me, sitting here, because I have an awful lot of questions.
    But, Ms. Carrion, I actually want you to speak a little 
bit. Whenever we have these kind of panels, and certainly a 
number of the issues that come in front of my committee, I 
always try to have a young person that was impacted one way or 
the other so that--we have the data, we have the judges, we 
have the correctional officers, we have those that want to help 
you, but it is still your voice that needs to be heard on some 
of the things that happened to you, especially the sexual 
abuse, and how you got back to being who you want to be today 
and who you are not going back to.
    So if you could just say, what do you think could help 
young women and young boys the best way?
    Ms. Carrion. Well, you know, I think that--because I was in 
two different kind of programs. I was a nonsecure detention 
center. That is when I got remanded. And then, because of my 
addiction, you know, I went into a therapeutic community.
    When I went into the therapeutic community, I was already 
18 years old, and the girls in there were 14 and 15 years old. 
And I can remember telling them, you know, if I had this 
program, if they would have sent me to this program when I 
first got arrested and couldn't stop smoking weed, you know, I 
think I would have had a better chance, a better fighting 
chance. You know what I am saying?
    Because the way that they had the program organized and how 
they just had one-on-one, direct care with these people, with 
these young girls, you know--like, they actually had a 
psychiatrist and all that on site. And I just believe that 
counseling really helps them. When they have an outlet--
``Listen, I am mad at my mother, and I am mad at my father, and 
this is what they did to me. And my mother is a dope fiend.'' 
And if they don't have that outlet, all they have is, you know, 
okay, you have me in a place with a whole bunch of people who 
are angry, because all these teenagers are angry or depressed 
or something. You know? And the ones who are not angry, they 
are so highly medicated that they don't even know what is going 
on in the world. All they have is violence. That is all they 
have.
    And then, on top of that, I don't want to be here, so I am 
going to do whatever I can to get out of here. And if they 
didn't get anything treated while they are there, they leave 
there, and they are all just really messed up in the head and 
they feel lost. You know?
    So I think that counseling can play a big role. And keeping 
the youth, you know, whatever family they do have, to keep them 
attached to their families. Taking them totally out of the 
community is very hard on them. I didn't see my family--I saw 
my family twice while I was upstate. I saw them twice. And when 
I was in Odyssey House, I saw them every other weekend, and 
that gave me hope, like, ``Okay, I can do this. I can do this. 
My family got my back.'' You know? There is still some type of 
relationship there and I am not breaking all ties.
    So I think family support and keeping whatever programs 
that they do have--because there needs to be alternative 
programs. You can't just keep sticking kids in a box and expect 
them to rehabilitate. I don't believe that that is the way to 
go.
    Chairwoman McCarthy. Well, you know, I came to Congress 
without any kind of a political background. Nassau County, 
where I live, we have a very large facility for juveniles, and 
all I ever heard for the last 13 years were from the correction 
officers: ``These kids shouldn't be here.'' And that is coming 
from a corrections officer.
    But, again, you know, for so many years, it was told to all 
of us throughout this Nation that we have to be tough on crime, 
you have to be tough on the offenders. Which, I think we all 
agree, for those that should have those kind of punishments, 
they should be punished.
    But with all the data and all the work that all of you have 
been doing, you know, people are starting to become 
enlightened. They are nowhere near where they should be. And we 
will work as hard as we can on this committee to have the 
choices for judges, to have the money for the programs that 
need to be out there.
    My background was a nurse. I still feel I am a nurse. I am 
a nurse. And I also know what preventative care means. And, as 
you said, Judge, we all did stupid things when we were 13, 14, 
and 15 years old. And a lot of people don't realize that we 
probably were lucky that nothing happened to us. We didn't get 
into the wrong groups. Some kids aren't as lucky as we were.
    But we need to have the services, so young women like you--
and you have pulled your life together, and we are all so proud 
of you. But we want to give that chance to a lot of young 
people, because the young people here in the audience--and many 
times I feel very frustrated that we do not look out for the 
future leaders of this Nation.
    And as we look forward in the competition worldwide, every 
young child, every young adult could be a future leader. And we 
have to do whatever we can to give that child, to reach the 
full potential of what they need to be. We can do a better job. 
We must do a better job.
    And it is a whole--believe me, I work--there is a big 
battle going on right now about earmarks, you know, that we as 
Members of Congress get earmarks. Let me tell you where my 
earmarks go.
    They go to nonprofit organizations back in my district. 
They go to organizations that are helping kids get out of 
gangs. They are helping my local police have more of a 
relationship with the community. They go into programs that are 
helping young men and women fight drugs and addiction. Those 
are my earmarks. And the majority of Members in this Congress, 
that is what they are doing in their community.
    So, whatever happens with that--and we will have a vote 
sometime this week--I will be voting against it, because I 
believe I know my community and where the money needs to go for 
the most help.
    So, with that, I am unfortunately going to have to end 
this. I think I have already missed one vote. This is better 
than having a vote at this particular time.
    So what I will say to you is--I am going to skip my 
concluding remarks. I think I have said what I needed to say. 
But I want to say thank you to each and every one of you. You 
have done a great job. We will try and get you the support that 
you need to continue the job.
    Data is extremely important. This is Kim. Kim and I love 
data. We love data. It might be boring to some people, but 
there are a lot of answers in that.
    As previously ordered, Members will have 14 days to submit 
additional materials for the hearing record. Any Member who 
wishes to submit follow-up questions in writing to the witness 
should coordinate with the majority staff within the requested 
time.
    Without objection, this hearing is adjourned. Thank you 
again.
    [The statement of Mr. Platts follows:]

   Prepared Statement of Hon. Todd Russell Platts, Senior Republican 
        Member, Subcommittee on Healthy Families and Communities

    Good morning. I would like to welcome you all to our hearing today.
    As we explore our existing juvenile justice system, it is ever 
important that we also examine the unique experiences faced by girls 
who enter the system. Today we will hear from a well-regarded group of 
witnesses who will be able to provide insight to the challenges and 
characteristics of female offenders.
    Although recent studies have provided us with more information 
regarding the involvement of females in the juvenile justice system, 
there is still much we have yet to learn. According to the Girls Study 
Group--a group of scholars and practitioners convened by the Office of 
Juvenile Justice and Delinquency--by 2004, girls accounted for 30 
percent of all juvenile justice arrests. Despite the fact that this 
figure is higher than previous decades, the group found that girls have 
not necessarily become more violent, but that changes in the 
enforcement of domestic dispute laws and zero-tolerance school policies 
may attribute to an increasing percentage of female delinquency rates.
    As we deal with the changing environment of the juvenile justice 
system, we must ensure that these girls are treated in a way that is 
both safe and constructive to their rehabilitation. As such, it is 
critically important that we meet today to hear from individuals who 
have front-line experience. I want to especially note the attendance of 
Cameron Romer, an Intensive Aftercare Officer, from York County, 
Pennsylvania in my home district. I am particularly grateful for Ms. 
Romer sharing her knowledge of working with females who require 
intensive supervision and treatment.
    I look forward to hearing the testimony of all of our witnesses 
today, and am confident that will be able to address the unique needs 
of girls in our juvenile justice system. Thank you, Chairwoman 
McCarthy.
                                 ______
                                 
    [Additional submissions of Mrs. McCarthy follow:]

    Prepared Statement of Dory Magasis Escobar, Director of Healthy 
        Communities, St. Joseph Health System--Sonoma County, CA

    Madam Chairwoman Carolyn McCarthy, Ranking Member Todd Platts and 
members of the Committee on Education and Labor Subcommittee on Healthy 
Families:
    Female involvement in Sonoma County's juvenile justice system in 
the 1990's was on a steady course upward--as juvenile male involvement 
in delinquency proportionately declined; with data on female juvenile 
delinquency putting Sonoma County, CA well above the state average for 
juvenile arrests, offenses/misdemeanors, substance abuse, sexual 
activity, suicide, and involvement in gang activity, including the 
recruitment of girls into existing and emerging gangs. Traditionally, 
youth criminal behavior has been addressed by the juvenile justice 
system and academic sociologists and not as a community health concern.
    What we now know implores us to address these issues in a healthy 
community context. In response to this critical information regarding 
how badly girls were doing in Sonoma County, St. Joseph Health System--
Sonoma County (SJHS-SC), a ministry of St. Joseph Health System, 
facilitated community focus groups and assessments to inform key 
stakeholders and garner their feedback on potential action. As a result 
of that work, Project E.S.C.A.P.E., better known as Circle of Sisters 
(COS), was developed in 2000 to provide a forum, training, and model 
for schools and communities to address societal and familial issues 
that tend to impact girls negatively, by focusing on strengths and 
individual, family and community assets, by providing positive peer and 
adult support, and by offering girls information that expands their 
decision making abilities.
    COS is one of several Healthy Communities initiative of St. Joseph 
Health System--Sonoma County (SJHS-SC), comprised of Santa Rosa 
Memorial and Petaluma Valley Hospitals, as well as other local 
facilities. COS provides gender-responsive and developmentally 
appropriate community-based programming for girls in grades 4 through 8 
(ages 9--14 years). Research shows that the majority of juvenile crime 
and victimization occurs between the hours of 3and 6 p.m., indicating 
the importance of after-school programs. The COS after-school program 
uses prevention-oriented, risk-reduction strategies, which are designed 
to prevent and reduce female juvenile delinquency, crime, and 
victimization; and was founded on the principles of the Search 
Institute's ``40 Developmental Assets for Youth.''
    As shown in the 1999 studied sponsored by SJHS-SC and authored by 
Constance U. Battle, M.D, Developmental Pediatrician from Washington, 
D.C., ``A Summary of Growth in Adolescent Girls: A Reference and 
Resource Guide--The Developmental Stages of Body, Mind and Spirit in 
End of Middle Childhood Ages and Early Adolescence Ages,'' 
developmentally girls experience many different life transitions during 
middle childhood and early adolescence. The goal of COS is to help 
girls navigate these developmental stages successfully, by providing 
prevention and risk reduction programming and opportunities to maximize 
their positive developmental assets and develop resiliency. This 
summary of gender specific research has been at the core of the Circle 
of Sisters program and curriculum development. The program's curriculum 
includes specific strategies that reflect this research and instructs 
program facilitators on how to best meet the girl's developmental 
needs, providing girls ages 9-14 with developmentally appropriate and 
gender specific information about the physical and emotional changes 
they are experiencing.
    Circle of Sisters provides participants with the opportunity to 
develop internal and external assets through specific program 
activities. The program is structured to develop the essential life 
skills, values, experiences, resources and support that will enable 
girls to make positive present and future life choices. COS Program 
components include: Journaling, Circle Time, and Life Learning Tracks 
(fun experiential activities tied into the daily theme/topic). Sample 
topics include: Self-esteem, tolerance and understanding, health and 
nutrition, peer pressure, and conflict resolution.
    The program emphasizes the identification and enhancement of 
individual strengths, or ``assets'' through positive feedback, 
leadership opportunities, and role modeling. COS has eight target 
participant outcomes focused on participants being able to demonstrate: 
1) An ability to resolve conflicts; 2) An ability to communicate 
appropriately and effectively; 3) An ability to resist negative 
external influences and victimization; 4) Age appropriate health 
practices; 5) An ability to solve problems and make healthy decisions; 
6) An ability to develop healthy relationships; &) Appropriate 
expression of personal values, talents, and skills; 8) Meaningful 
interaction with their community.
    Circle of Sisters programs targets young girls living in affordable 
housing complexes and/or attending schools that have a high 
representation of Latino and/or a high number of children who qualify 
for federally funded free and reduced lunch programs. The housing 
complexes are located in high crime areas where families struggle with 
issues of persistent poverty, lack of community support, limited 
literacy and English skills, prevalence of gang participation and 
substance abuse among youth. Current research documents that: 1) 
Latinas report lower self-esteem, higher levels of depression and 
highest level of suicide than other adolescents; 2) Adolescent Latinas 
experience significantly more negative life events than young Latinos 
and report a higher incidence of abuse and violence than their white 
counterparts; 3) For young Latino and African American girls, low 
economic status correlates with high stress and depression, domestic 
violence, physical and sexual abuse and low self-esteem. COS is free to 
all participants and provides on-site programming in order to address 
the transportation issues that are inherent in an after-school program 
for youth.
    During its critical formative stage, Circle of Sisters (Project 
E.S.C.A.P.E.) received over 3 years of funding from the Office of 
Juvenile Justice Delinquency Prevention in order to expand number of 
girls served, develop lesson plans aligned with the Search Institute's 
40 Developmental Assets for Youth and evaluate the programs impact. 
These objectives were successfully met, with a increase in program 
participants from 20 girls enrolled at 1 site in 2000, to 269 girls 
enrolled in 2010 with 12 different sites and 15 different groups.
    Over the past 10 years, 1256 girls have participated in Circle of 
Sisters at 28 different sites with a total of 102 groups, and COS has 
employed 37 different group facilitators, 230 community volunteers, 7 
full-time AmeriCorps Promise Fellow volunteers, 4 Masters of Social 
Work interns and collaborated with over 60 community partners. A COS 
program curriculum was also developed; including the creation, testing 
and revision of 80 age-appropriate skill and asset building lesson 
plans.
    Program participants and family members have stated the following 
about the Circle of Sisters program: ``Brianna's respect level has 
risen a lot since joining Circle of Sisters. I am very happy with the 
personal growth. Thank you all very much.''--Parent, ``I have boosted 
my personality, self-confidence and have made more friends. I feel that 
COS helps me open my feelings and I am able to express myself much 
more''--13 year old girl, COS helps me by talking about my problems 
that I have and how to fix them. They also help me by be there for me 
when I'm sad''--10 year old girl.
    Girls develop through relationships. During the latency/early 
adolescent stage in life peers become more important and girls are more 
likely to be prey to peer pressure and the awkwardness of developmental 
body changes. All people want to fit in, they want a place to belong, 
people to trust and care for them, power to have control over some 
aspects of their lives and a sense of purpose or meaning in their 
lives. St. Joseph Health System--Sonoma County's Circle of Sisters 
program is a model program for female violence prevention where the 
need for positive relationships and the core COS principle of having 
``Place, People, Power, Purpose'' is met.
                                 ______
                                 

        Prepared Statement of Just Detention International (JDI)

    Just Detention International thanks the Subcommittee on Healthy 
Families and Communities for holding this important hearing on 
challenges faced by girls in the juvenile justice system. As a recent 
report by the Bureau of Justice Statistics makes clear, detained girls 
are at grave risk for sexual abuse, both by perpetrating staff and by 
other detainees. The rising number of girls in the juvenile justice 
system makes even more apparent the urgency with which the issue must 
be addressed.
    Just Detention International (JDI) is the only U.S. organization 
exclusively dedicated to ending sexual violence in detention. JDI works 
to ensure government accountability for prisoner rape; to transform 
illinformed public attitudes about sexual violence in detention; and to 
promote access to resources for those who have survived this form of 
abuse. JDI's efforts are guided by the expertise of men, women, and 
children who have endured sexual violence behind bars and who 
courageously have shared their experiences with us.
    JDI led a diverse coalition of advocates who worked closely with 
politicians on both sides of the aisle to help secure the passage of 
the U.S. Prison Rape Elimination Act (PREA) in 2003. PREA calls for the 
development of national standards addressing prisoner rape, the 
gathering of nationwide statistics about the problem, the provision of 
hearings with the best and the worst performing corrections facilities. 
As a result of PREA, corrections officials can no longer deny that 
sexual violence is a problem in their facilities, and leading agencies 
are developing best practices to improve inmate safety. Sadly, however, 
most juvenile facilities are dangerously lagging behind in efforts to 
address sexual abuse in their facilities--and the minimal actions taken 
so far have largely focused on male detainees.
I. Sexual Violence Against Girls in Detention
    In January, the Bureau of Justice Statistics (BJS) released a 
report on its firstever national survey of youth in juvenile detention. 
Based on this survey, the BJS found that a shocking 12.1 percent--
almost one in eight--of youth reported being abused at their current 
facility in the past year alone.\1\ In the worst facilities, the rate 
was well over 30 percent.\2\
    More than nine percent of girls who participated in the survey 
reported forced sexual activity with other youth, a rate that was more 
than four times that reported by surveyed boys. An estimated 4.7 
percent of girls reported sexual activity with staff.\3\
    The BJS survey confirmed that certain types of youth are 
disproportionately targeted for abuse. In particular, juvenile 
detainees with a history of abuse were more than twice as likely to be 
sexually abused while incarcerated as their peers.\4\ This risk than 90 
percent of girls in the juvenile justice system experienced physical, 
sexual or emotional abuse prior to their detention.\5\
    Like in adult prisons and jails, youth who identify as lesbian, 
gay, bisexual, transgender or questioning (LGBTQ) are also 
exceptionally vulnerable.\6\ In particular, transgender girls are often 
tormented by constant sexual harassment, as they tend to be placed in 
boys' facilities, in accordance with their birth gender. Cyryna Pasion, 
a transgender girl who was repeatedly sexually assaulted and harassed 
by other wards while in the boys' unit of a Hawaii youth facility 
described her ordeal as ``the most damaging and emotionally devastating 
treatment of [her] life.'' \7\ Dr. Robert Bidwell, a pediatrician at 
the Hawaii Youth Correctional Facility, testified that he believed that 
an institutional antiLGBTQ sentiment was among the most critical 
factors in creating such a dangerous environment and that national 
standards addressing the treatment of LGBTQ youth was urgently 
needed.\8\
    Perpetrating staff in girls' facilities often target youth known to 
have a history of prostitution.\9\ The policy of allowing officers of 
the opposite sex to work in all areas of a staff sexual misconduct.\10\
    Survivors of sexual violence in detention who wish to file a formal 
complaint face multiple serious barriers, including fear of stigma and 
further assaults. Young survivors face additional obstacles, such as a 
relative lack of experience in corrections settings and a common fear 
of adult authority figures. All too often, detained youth are abused by 
staff members whose job it is to keep them safe.\11\ Such blatant abuse 
of power further discourages reporting, and underscores the difficulty 
detained youth face when seeking to identify safe ways to report abuse.
    Moreover, detainees in juvenile facilities are often afforded less 
access to legal resources than inmates in adult facilities.\12\ While 
they generally do not complain about abuse and are especially unlikely 
to file lawsuits, detained youth are still subject to the harsh 
requirements of the Prison Litigation Reform Act, which creates special 
pleading requirements and other procedural hurdles for incarcerated 
individuals who seek to have civil rights violations addressed in 
court.
II. Increasing Safety for Incarcerated Youth through the PREA Standards
    The BJS study confirms what JDI has long known: young detainees 
constitute an especially vulnerable population that needs special 
protections, and the unique dynamics in girls' facilities require 
urgent attention. In its final report, the National Prison Rape 
Elimination Commission (Commission) noted that the increasing number of 
girls in facilities, which were traditionally designed to meet the 
needs of boys * * *'' \13\
    In accordance with its mandate under PREA, the bipartisan 
Commission developed national standards to prevent, detect, respond to, 
and monitor sexual violence in detention. Recognizing the particular 
dynamics of different types of facilities, the Commission developed 
separate sets of standards for adult prisons and jails, juvenile 
facilities, lockups, and community corrections as well as supplemental 
standards for facilities housing immigration detainees. These standards 
were the product of five years of hearings, deliberation, and review. 
They address core detention management issues that directly affect the 
levels of sexual abuse in a facility, such as staff training, inmate 
education, housing, and investigations in the aftermath of an assault.
    If enacted, specific provisions in the Commission's standards would 
substantially improve safety for detained girls. For example, the BJS 
survey found that youthonyouth abuse is particularly common in girls' 
facilities; the Commission's standards mandate that information about 
risk factors be obtained from youth and be taken into account when 
making housing and programmatic decisions, so that vulnerable youth are 
effectively separated from likely perpetrators without being subject to 
additional punishment. Additionally, basic privacy measures regarding 
crossgender supervision are especially important for youth, who are 
still developing physically and emotionally; the standards limit the 
extent to which staff may search youth of the opposite sex or observe 
youth of the opposite sex while they are in states of undress.
    The standards are now with U.S. Attorney General Eric Holder, who 
by law has until June 23, 2010 to codify final standards based on the 
Commission's year to certify their compliance, or they will lose a 
portion of their federal correctionsrelated funding.
    III. Recommended Congressional Action
    Swift ratification of the Commission's standards has the potential 
to save thousands of girls from the devastation of rape. Nonetheless, 
it is already clear that Attorney General Holder will not meet his 
deadline. The Department of Justice has convened an internal PREA 
Working Group to review the standards. The Working Group coordinators 
have projected that its work may not be completed until 2011. This 
delay is due, in large part, to a problematic cost projection study 
based on corrections administrators' own estimations of how much 
implementing each standard may cost. This study does not take into 
consideration the tremendous benefits of implementing the standards, 
nor does it encourage participating administrators to think creatively 
about low or nocost options for implementation.\14\
    Congress should urge Attorney General Holder and the PREA Working 
Group to ratify strong standards without undue delay by deferring to 
the expertise that informed the Commission's standards.
    Congress should also encourage the Attorney General to establish a 
mechanism for effective oversight of standards compliance, which goes 
beyond the certifications of detention administrators and the auditors 
with whom they contract. The compliance (OJJDP) provides a useful 
framework. OJJDP has a compliance monitor in every state to visit 
facilities and ask questions, ensuring that every system meets the four 
core requirements of the Juvenile Justice and delinquency Prevention 
Act (JJDPA). This external oversight has been a key component of JJDPA 
efforts to hold noncompliant administrators accountable, to identify 
problems that even an outstanding official within a system may 
overlook, and to provide information about best practices from other 
jurisdictions. Implementation of the standards under PREA will need 
strong, external oversight that takes into account information from 
detainees, parents of youth in detention, advocates, and other 
stakeholders, along with the assessment of corrections insiders.
    In addition to demanding full implementation of PREA and the 
standards, Congress should take other measures to improve the safety of 
detained girls. Specifically, the Prison Litigation Reform Act (PLRA) 
should be amended. The Prison Abuse Remedies Act, H.R. 4335, introduced 
by Rep. Bobby Scott addresses the various problems with the PLRA while 
retaining its effective provisions. One of that bill's key provisions 
is to exempt juveniles from the PLRA. While not the primary focus of 
the law, young inmates have been drastically affected by the PLRA.
    Finally, the Juvenile Justice and Delinquency Prevention Act 
(JJDPA) must be reauthorized and strengthened. A 2005 BJS study of 
sexual abuse reported in adult prisons and jails found that young 
inmates were at heightened risk for abuse in these facilities as 
well.\15\ With these alarming data in mind, it is clear that use of the 
adult criminal justice system to prosecute juveniles should be 
minimized and, even when convicted in the adult system, youth should 
only be detained with other juveniles.
III. Conclusion
    The widespread sexual abuse of girls in detention is not 
inevitable; it is the result of poor corrections management, bad 
policies, and dangerous practices. In 2003, Congress took the pivotal 
step of unanimously passing the Prison Rape Elimination Act. To ensure 
that the full intent of that pivotal law is realized, JDI urges 
Congress to demand that the Attorney General ratify strong standards, 
without undue delay, and to provide additional legislative protections 
through the reauthorization of the JJDPA and reform of the PLRA.
                                endnotes
    \1\ ALLEN BECK, PAIGE HARRISON & PAUL GUERINO, BUREAU OF JUSTICE 
STATISTICS, SEXUAL VICTIMIZATION IN JUVENILE FACILITIES REPORTER BY 
YOUTH 2008-2009 1 (2010).
    \2\ Id. at 1. The three facilities with the highest rates of sexual 
victimization were: Pendleton Juvenile Correctional Facility, a boys' 
facility in Indiana (36.2%); Samarkand Youth Development Center, a 
girls' facility in North Carolina (33.3%); and Corsicana Residential 
Treatment Center, a co-ed facility in Texas (32.4%).
    \3\ Id. Among boys who participated in the survey, two percent 
reported sexual activity with another youth; 10.8 percent reported 
sexual activity with staff. Id.
    \4\ BECK, HARRISON & GUERINO, supra note 1, at 11.
    \5\ Physicians for Human Rights, Unique Needs of Girls in the 
Juvenile Justice System, available on-line at http://
physiciansforhumanrights.org/juvenile-justice/factsheets/girls.pdf 
(last visited March 9, 2010).
    \6\ Id. at 1. For more information about the severe danger of 
sexual abuse facing LGBTQ detainees, see JDI Fact Sheet, LGBTQ 
Detainees Chief Targets for Sexual Abuse in Detention (October 2007).
    \7\ Ms. Pasion's testimony is available on-line at http://
www.cybercemetery.unt.edu/archive/nprec/20090820160300/; http://
nprec.us/docs/boston--survivortes timony--pasion.pdf
    \8\ Dr. Bidwell's testimony is available on-line at http://
www.cybercemetery.unt.edu/archive/nprec/20090820160337/; http://
nprec.us/docs/boston--natureofpro blem--bidwell.pdf
    \9\ HUMAN RIGHTS WATCH & THE AMERICAN CIVIL LIBERTIES UNION (ACLU), 
CUSTODY AND CONTROL: CONDITIONS OF CONFINEMENT IN NEW YORK'S JUVENILES 
PRISONS FOR GIRLS 63-64 (2005).
    \10\ Id. at 6371.
    \11\ BECK, HARRISON & GUERINO, supra note 3, at 1.
    \12\ See, e.g., Alexander s. v. Boyd, 876 F. Supp. 773, 790 (D.S.C. 
1995) (holding that juvenile detainees had no constitutional right to a 
law library).
    \13\ National Prison Rape Elimination Commission, Final Report 
at147-48.
    \14\ Just Detention International is working with three 
jurisdictions--the California Department of Corrections and 
Rehabilitation, the Oregon Department of Corrections, and the Macomb 
County (Michigan) Sheriff's Office--to bring their facilities into 
compliance with the Commission's standards before they are required to 
do so. Recognizing the fiscal limitations of these agencies and their 
counterparts around the country, this work has focused on low and no-
cost measures, such as amending existing training curricula and 
consolidating staff responsibilities.
    \15\ ALLEN J. BECK & PAIGE M. HARRISON, BUREAU OF JUSTICE 
STATISTICS, SEXUAL VIOLENCE REPORTED BY CORRECTIONAL AUTHORITIES, 2005 
(2006).
                                 ______
                                 

 Prepared Statement of Malika Saada Saar, Executive Director; Kathleen 
 Shakira Washington, Policy Director, Rebecca Project for Human Rights

    The Rebecca Project for Human Rights is honored by the opportunity 
to submit written testimony for the ``Meeting the Challenges Faced by 
Girls in the Juvenile Justice System `` hearing held by the House 
Education and Labor Committee Subcommittee on Healthy Families and 
Communities. The Rebecca Project for Human Rights is a national legal 
and policy organization that advocates for public policy reform, 
justice and dignity for vulnerable families. The Rebecca Project 
strives to reform child welfare, criminal justice, and substance abuse 
policies that impact the lives of vulnerable families. We frame the 
pervasiveness of violence against women and girls, the draconian 
conditions that too often characterize maternal incarceration, and the 
dearth of access to health and healing for mothers and their children, 
as fundamental human rights violations.
    The Rebecca Project applauds Chairwoman McCarthy and the 
subcommittee's leadership in addressing the challenges faced by girls 
who are involved in juvenile justice system. We are especially 
concerned about the unique pathways of girls into the legal system, the 
impact of traditional models of detainment, and the profound dearth of 
gender specific, trauma informed and strength-based alternative 
programming for girls.
Current status of girls in the juvenile justice system
    The past two decades has witnessed a decline in the number of youth 
involved in the juvenile justice system. Data has shown that between 
1994 and 2003, overall juvenile arrest rates declined by 18%.\1\ 
However, the proportion of female juvenile offenders has steadily 
increased with an unprecedented number of girls entering the juvenile 
justice system. In 2007, female offenders accounted for 29% of the 2.18 
million juvenile arrests\2\--a dramatic increase from 2001 when girls 
accounted for 19% of arrested youth.\3\ Further, when comparing girls' 
involvement in the criminal justice system to that of boys, between 
1985 and 2002, the overall delinquency caseload for females increased 
by 92% compared to only 29% for males.\4\
    Most often juvenile female offenders are arrested for status 
offenses. Status offenses are ``noncriminal offenses'' or offenses that 
are illegal for underage persons, but not for adults.\5\ Such offenses 
include curfew violations, incorrigible or ungovernable behavior, 
running away, truancy, and underage drinking.\6\ While current 
legislation prohibits the detainment of youth arrested for status 
offenses, far too often the practice of ``bootstrapping'' or violations 
of court orders based on the original status offense, and lack of 
alternatives to detention faced by most courts often result in 
detainment of female juvenile offenders. For example, in 2005 only 15% 
of all arrest of female juveniles involved physical violence (e.g., 
violent crimes--3% and simple assault--12%) with status offenses (e.g., 
running away, liquor laws, curfew violations, and loitering) and 
property crimes accounting for the remaining 85% of arrest.\7\ Further, 
girls disproportionately represented 58% of all runaway arrest even 
though they only accounted for 29% of all detained youth.\8\ Last, 
recent investigations into the causes of increasing rates of female 
juvenile arrest have found that rates of crime among female juvenile 
populations are not increasing, but girls are being arrested more often 
due to stricter, no-tolerance policies and practices of schools, the 
police, social welfare agencies, and the juvenile justice system.\9\
Pathways of female adolescents to detention
    There are a variety of characteristics associated with youth who 
are involved in the juvenile justice system including school failure 
and family stress and chaos.\10\ However, one characteristic or factor 
that is distinct and most salient for girls is that of sexual and 
physical abuse. While it is estimated that approximately 73% of all 
girls involved in the juvenile justice system report histories of 
extreme sexual and physical abuse, various studies have reported 
findings as high as, if not higher, than 90%.\11\ For example, a 
California based study found that 92% of the girls interviewed had 
suffered some form of abuse. Of this group, 81% of the girls had been 
physically abused and 56% reported one or more forms of sexual 
abuse.\12\ Further, a study conducted by the Oregon Social Learning 
Center on chronically delinquent girls found that the average age of 
first sexual encounter among girls was approximately 7 years of age and 
that 78% of girls had documented histories of physical abuse as compare 
to 3% of boys.\13\
    When considering policies and programs that address youth involved 
in the juvenile justice system, it is imperative that such decisions 
take into account the high rates of trauma due to physical and sexual 
abuse among adolescent female offenders. There is a wealth of 
information suggesting that exposure to traumatic events may be linked 
to delinquent behavior and that delinquent acts may be a direct or 
indirect reflection of past victimization.\14\ For example, a 
longitudinal study found that girls and women with histories of 
childhood abuse or neglect were 73% more likely than females without 
abuse histories to be arrested for property, alcohol, drug, and 
misdemeanor offenses such as disorderly conduct, curfew violations, or 
loitering.\15\ Studies have found that youth who were victims of sexual 
abuse coupled with physical abuse and neglect were more likely to run 
away from home than children who experienced other forms of 
maltreatment\16\--with estimates of that between 33--75% of girls who 
are in runaway homes or in the juvenile justice system were victims of 
sexual violence.\17\ Further, girls hurt by sexual violence are 3 times 
more likely to develop psychiatric disorders or alcohol/drug abusing 
behaviors in adulthood, compared to girls who are not sexually 
abused.\18\ Studies have found that 75% of girls involved with the 
juvenile justice system report being regular users of alcohol and/or 
drugs, with another 34% being diagnosed with a substance abuse 
disorder.\19\
    Once detained, many girls suffer further victimization. The 2006 
National Report of the Office of Juvenile Justice and Delinquency 
Prevention reported that there were 2,821 allegations of youth-on-youth 
(59%) and staff-on-youth (41%) acts of sexual violence in juvenile 
facilities in 2004. Within the youth-on-youth incidents, 2 of every 3 
were nonconsensual sexual acts and within the staff-on-youth incidents, 
3 of every 4 were staff sexual misconducts.\20\ Of these allegations, 
girls made up only 11% of the state-operated facilities population, but 
accounted for 34% of the victims of sexual violence in these 
facilities\21\ and in local or privately owned facilities, girls made 
up only 17% of the total population, but accounted for 37% of the 
victims of sexual violence.\22\
    While these numbers are daunting, it is important to remember that 
sexual and physical abuse often goes unreported or underreported.\23\ 
Given this fact, one can only assume that current statistics regarding 
the extent of physical and sexual abuse of girls involved in the 
juvenile justice system are more than likely an underestimation of the 
actual rates among this vulnerable population.
Mental health and victimization of girls in the juvenile justice system
    It has been estimated that one in five adolescents involved in the 
juvenile justice system has a serious mental health problem.\24\ For 
females involved in the juvenile justice system, the estimated 
prevalence of mental health disorders has been reported as high as 
84%--a rate similar to that of physical and sexual abuse among detained 
female juveniles.\25\ In one study of detained youth in Cook County 
from 1995 to 1998, study outcomes found that girls had higher rates of 
psychiatric disorders and rates of depression and anxiety, with anxiety 
disorders being particularly high among girls participating in the 
study.\26\ Further, the Oregon Social Learning Center found that over 
three-quarters of adolescent female study participants met the criteria 
for three or more DSM IV Axis 1 diagnoses.\27\
    This data is significant in that numerous studies have found that 
exposure to trauma effects girls differently than boys. Studies have 
found that among those who are exposed to trauma, females are more 
likely than males to develop mental health problems as a result of this 
exposure.\28\ In particular, female juvenile delinquents are six times 
more likely than male juvenile delinquents to suffer from posttraumatic 
stress disorder at the point of detention and at some time in their 
lives than the general population.\29\
    Left untreated mental health disorders, such as depression and 
posttraumatic stress are expressed through a variety of behaviors that 
include suicidal tendencies, phobic/avoidant behaviors, affective 
numbing, nightmares, and repetitive/inappropriate sexual behaviors.\30\ 
Trauma has also been associated with a variety of other anti-social 
behaviors that place victims at increased risk for detention. Data has 
suggested that youth exposed to trauma are more ``emotionally 
overactive'' and more likely to engage in coercive and noncompliant 
behaviors and will display a variety of emotions that are associated 
with problem behavior including lack of empathy, impulsivity, anger, 
acting-out, resistance to treatment, and high risk sexual behavior.\31\
    An example of the impact of trauma on the lives of girls is 
exemplified in a study that examined the relationship between gender, 
trauma, delinquency and mental health in a cohort of delinquent 
offenders. Of the 96 participating females in the study, 74% of the 
girls reported being ``badly hurt or in danger of being hurt'', 76% 
reported ``witnessing someone severely injured or killed'' and 60% 
reported ``being raped or in danger of being raped.'' This study also 
found that boys were more likely to be traumatized as observers of 
violence as compared to girls who were more likely to be traumatized as 
direct victims, and participating girls were 50% more likely to exhibit 
current symptoms of posttraumatic stress as compared to boys 
participating in the study.\32\
    While detention is often viewed as a protective measure for 
troubled youth, most often conditions of detainment exacerbate 
untreated mental health issues. There have been numerous reports as 
well as lawsuits that have shed a glaring light on the deplorable 
conditions under which detained youth are required to reside. The most 
comprehensive national study on the conditions of juvenile detention 
facilities titled Conditions of Confinement: Juvenile Detention and 
Corrections Facilities (1994) noted the existing deficiencies in the 
system that included inadequate living space due to overcrowding, lack 
of appropriate security, the lack of basic personal hygiene supplies, 
the use of restraints and isolation, as well as emotional, physical and 
sexual abuses by staff and detainees.\33\ Lawsuits have also focused 
specifically on the failure to provide ``adequate medical and mental 
healthcare, including screening, emergency services, and ongoing 
services, as well as allegations of insufficient staffing, poor staff 
qualifications and lack of training, and inadequate protection for 
youth at risk of suicide.'' \34\
    Since the 1990s, a number of actions have been taken to address the 
dearth of mental health services provided through the juvenile justice 
system. For example, the National Commission on Correctional Health 
Care (NCCHC) published standards of care for juvenile facilities, the 
Office on Juvenile Justice and Delinquency Prevention (OJJDP) conducted 
a survey of juvenile justice facilities to assess the extent to which 
facilities were meeting treatment standards, and standardized screening 
instruments and protocols have been developed. However, as noted in a 
recent report by the Annie E. Casey Foundation,
    ``Though research identifies extensive mental health needs among 
detained and incarcerated girls, few girls' detention units address 
girls' mental health comprehensively and appropriately. Adequate mental 
health screening is not common, nor is mental health treatment, and 
temporary detention is disruptive to community mental health treatment 
and to treatment through medication.'' \35\
Alternatives to detention for female adolescents
    In a recent report published by the Justice Policy Institute, it 
was estimated that states spend approximately $5.7 billion each year to 
detain and imprison youth.\36\ Further, this report noted that several 
states such as California, Illinois, Ohio, New York and Pennsylvania 
are turning to more effective yet less expensive alternatives to 
detention as a solution to escalating cost associated with youth 
delinquency and to address the growing body of evidence regarding the 
detrimental long-term effects of detainment and incarceration of youth. 
For example, in Ohio, outcome measures of the ``RECLAIM Ohio'' program 
has found a 42% decline in the number of youth committed to secure 
state care and ``for every dollar spent on the RECLAIM program, the 
state save(d) $11 to $45 in commitment and processing cost, depending 
on the risk level of the youth.'' \37\
    Given that the majority of girls enter the juvenile justice system 
for non-violent, status offenses, that between 70-90% of girls have a 
history of extreme victimization, and that upwards to 80% suffer from 
mental health disorders, alternatives to detainment would be a safe and 
cost effective alternative to the detainment of girls involved in the 
juvenile justice system. As a minimum, these programs should 
incorporate the following elements to be considered gender-responsive: 
\38\
    <bullet> Comprehensive--weaving family, community and systems 
together for girls;
    <bullet> Safe--promoting healing from trauma caused by physical and 
psychological abuse;
    <bullet> Empowering--addressing needs while encouraging leadership 
and the development of girls' strengths;
    <bullet> Community and Family Focused--based in the community, 
fostering health family relationships and sustainable community 
connections; and
    <bullet> Relational--supporting continuous, positive relationships 
for girls with older women, family, and peers.
    Examples of programs that are gender-responsive, trauma-informed 
and strength-based include the following:
    <bullet> Juvenile Justice Fund (GA)
    <bullet> PACE Center for Girls (FL)
    <bullet> Center for Young Women's Development (CA)
    <bullet> National Crittenton Foundation (National)
    <bullet> Girls Mentoring and Education Services (NY)
    <bullet> Wings for Life (TX)
    <bullet> Multidimensional Treatment Foster Care (OR)
    <bullet> Hawaii Girls Court (HI)
    Unfortunately, these strength-based, gender-specific, trauma-
responsive programs are severely limited in capacity, relegating girls 
to the juvenile justice system as a default approach. The phenomenon of 
girls in detention by default, especially girls with histories of 
physical and sexual abuse, because of the absence of alternative 
strength-based, gender-specific, and trauma-responsive programs is 
unacceptable. The Rebecca Project for Human Rights therefore urges for 
the scaling up of these programs and systems as a needed and effective 
alternative to the senseless detention of vulnerable girls.
Recommendations
    <bullet> Eliminate the use of ``violation of court orders (VCOs)'' 
as a means of detaining status offenders
    <bullet> Develop gender-specific assessment tools and protocols 
that address sexual/physical victimization and mental health status of 
girls
    <bullet> Develop community-based referral systems that address the 
unique needs and circumstances of girls that are trauma informed yet 
build on the strengths of girls
    <bullet> Increase the number of available gender responsive, trauma 
informed and strength-based programs that are available as alternatives 
to detention for girls
                                endnotes
    \1\ Snyder, Howard N., and Sickmund, Melissa. (2006) Juvenile 
Offenders and Victims: 2006 National Report. Washington, DC: U.S. 
Department of Justice, Office of Justice Programs, Office of Juvenile 
Justice and Delinquency Prevention.
    \2\ OJJDP. Statistical Briefing Book. 2007 (Accessed 9/4/09. http:/
/ojjdp.ncjrs.org/crime/qa05101.asp?qaDate=2007.)
    \3\ Sherman FT. 13 Pathways to Juvenile Detention Reform: Detention 
Reform and Girls--challenges and solutions. The Annie E. Casey 
Foundation, Baltimore, MD. 2005.
    \4\ OJJDP, 2007.
    \5\ Legal Dictionary. Accessed 9/09. http://
miscellaneous.legaldictionaries.org/SBB-Glossary/Status--offense.
    \6\ Legal Dictionary, 2009.
    \7\ Federal Bureau of Investigation. Uniform Crime Reports for the 
United States: 2005. Washington, DC: U.S. Government Printing Office. 
2005.
    \8\ Federal Bureau of Investigation, 2005
    \9\ Goodkind S, Ng I, Sarri RC. The impact of sexual abuse in the 
lives of young women involved or at risk of involvement with the 
juvenile justice system. Violence Against Women, 2009. 12(5):456-477.
    \10\ Sherman FT, 2005.
    \11\ Sherman FT, 2005.
    \12\ Acoca L, Dedel K. No Place to hide: Understanding and Meeting 
the Needs of Girls in the California Juvenile Justice System. National 
Council on Crime and Delinquency, San Francisco, CA, 1998.
    \13\ Chamberlain P. The Miltideminsional Treatment Foster Care 
Model: Research and Community-Based Services. Presented at the 2nd 
National Training Conference on Juvenile Detention Reform. Portland, 
Oregon: Annie E. Casey Foundation, Jan. 24-26, 2002.
    \14\ Caufman E, Feldman SS, Waterman J, Steiner H. Posttramatic 
Stress Disoder Among Female Juvenile Offenders. Journal of the American 
Academy of Child Adolescent Psychiatry. 1998. 37(11):1209-1216.
    \15\ Sherman FT, 2005.
    \16\ Widom CS. Victims of childhood sexual abuse--later criminal 
consequences. NIJ Research in Brief. Mar. 1995:1-8.
    \17\ Shelden RG. Female delinquency and the juvenile justice 
system: Part I--Delinquency among girls. University of Nevada--Las 
Vegas, Las Vegas, NV. 2004; 1-28.
    \18\ Day A, Thurlow K, Woolliscroft J. Working with childhood 
sexual abuse: A survey of mental health professions. Child Abuse & 
Neglect. 2003. 27: 191-198.
    \19\ Riehman KS. Adolescent girls in the juvenile justice system 
issues for treatment. <Web access: www.womenandchildren.treatment.org/
media/presentations/d-4/Riehman.ppt.>
    \20\ Snyder HN, Sickmund M. Juvenile Offenders and Victims: 2006 
National Report. US Department of Justice, Office of Justice Programs, 
Office of Juvenile Justice and Delinquency Prevention, Washington, DC. 
2006: 1-242.
    \21\ Snyder HN, Sickmund M, 2006.
    \22\ Snyder HN, Sickmund M, 2006.
    \23\ Biden Jr. JR. What about the girls? The role of the federal 
government in addressing the rise in female juvenile offenders. 
Stanford Law and Policy Review. 2003. 29.
    \24\ Cocozza JJ, Skowyra K. Youth with mental health disorders: 
Issues and emerging responses. Juvenile Justice. 2000. 8(1):3-13.
    \25\ Wrath C, Ybarra M, Holden EW, Manteuffel B, Santiago R, Leaf 
P. Female offenders referred for community-based mental health service 
as compared to other service-referred youth: correlates of conviction. 
J. of Adolescence. 2003. 26:45-61.
    \26\ Sherman FT, 2005.
    \27\ Cauffman E, 1998.
    \28\ Cauffman E, 1998.
    \29\ Cauffman E, 1998.
    \30\ Deblinger E, McLeer SV, Atkins AS, Ralphe D, Foa E. Post-
traumatic Stress in Sexually Abused, Physically abused and Nonabused 
Children. Child Abuse & Neglect. 1999. 13:403-408.
    \31\ Smith DK, Leve LD, Chamberlain P. Adolescent girls' offending 
and health-risking sexual behavior: The predictive role of trauma. 
Child Maltreatment. 2006 Nov. 11(4):346-353.
    \32\ Cauffman E, 1998.
    \33\ Burrell S. Chapter 6: Pathways to Juvenile Detention Reform--
Improving conditions of confinement in secure juvenile detention 
centers. Annie E. Casey Foundation. Baltimore, MD. 2005.
    \34\ Burrell S. 2005.
    \35\ Sherman FT. 2005.
    \36\ Justice Policy Institute. The cost of confinement: Why good 
juvenile justice policies make good fiscal sense. May 2009. Washington, 
DC. www.justicepolicy.org
    \37\ Justice Policy Institute, 2009.
    \38\ Sherman FT, 2005.
                                 ______
                                 
    [Whereupon, at 11:52 a.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
